                       U.S. Department of Agriculture
                          Office of Inspector General




Animal and Plant Health Inspection Service
          Animal Care Program
   Inspections of Problematic Dealers




                                Audit Report 33002-4-SF
                                              May 2010
                              U.S. Department of Agriculture
                               Office of Inspector General
                                 Washington, D.C. 20250



DATE:          May 14, 2010


REPLY TO
ATTN OF:       33002-4-SF

TO:            Cindy J. Smith
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          Joanne Munno
               Acting Deputy Administrator
               Marketing and Regulatory Programs Business Services

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       APHIS Animal Care Program – Inspections of Problematic Dealers


This report presents the results of the subject review. Your written response to the official
draft report is included at the end of the report. Excerpts from the response and the Office of
Inspector General's (OIG) position are incorporated into the relevant sections of the report.
Based on the information in your written response, we have accepted your management
decision on Recommendations 1, 2, 3, 5, 6, 7, 8, 9, 10, 12, 13 and 14. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the
Chief Financial Officer.

Based on your written response, management decision has not been reached on
Recommendations 4 and 11. The information needed to reach management decision on these
recommendations is set forth in the OIG Position section after each recommendation. In
accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
providing the information requested in the OIG Position section. Please note that the
regulation requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from report issuance, and final action to be
taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during
the review.
Table of Contents

Executive Summary ................................................................................... 1 
Background & Objectives ......................................................................... 4 
  Background ............................................................................................. 4 
  Objectives ................................................................................................ 7 
Section 1: Enforcement ............................................................................ 8 
  Finding 1: AC’s Enforcement Process Was Ineffective Against
  Problematic Dealers ............................................................................... 8 
        Recommendation 1 ......................................................................... 14 
        Recommendation 2 ......................................................................... 15 
        Recommendation 3 ......................................................................... 15 
        Recommendation 4 ......................................................................... 16 
        Recommendation 5 ......................................................................... 16 
  Finding 2: AC Inspectors Did Not Cite or Document Violations
  Properly To Support Enforcement Actions ........................................ 17 
        Recommendation 6 ......................................................................... 23 
        Recommendation 7 ......................................................................... 24 
Section 2: Stipulations ........................................................................... 25 
  Finding 3: APHIS’ New Penalty Worksheet Calculated Minimal
  Penalties ................................................................................................ 25 
        Recommendation 8 ......................................................................... 30 
        Recommendation 9 ......................................................................... 30 
  Finding 4: APHIS Misused Guidelines to Lower Penalties for AWA
  Violators ................................................................................................. 30 
        Recommendation 10 ....................................................................... 34 
        Recommendation 11 ....................................................................... 35 
Section 3: Internet ................................................................................... 36 
  Finding 5: Some Large Breeders Circumvented AWA by Selling
  Animals Over the Internet .................................................................... 36 
        Recommendation 12 ....................................................................... 38 
Section 4: Information System .............................................................. 39 
  Finding 6: Security Controls Need to Be Addressed for AC’s New
  Information System .............................................................................. 39 
        Recommendation 13 ....................................................................... 40 
Section 5: Debt Management ................................................................. 41 
  Finding 7: IES Did Not Adequately Establish Payment Plans for
  Stipulations ........................................................................................... 41 
        Recommendation 14 ....................................................................... 42 
Scope and Methodology.......................................................................... 43 
Abbreviations ........................................................................................... 46 
Exhibit A: Summary of Monetary Results .............................................. 47 
Exhibit B: Audit Sites Visited .................................................................. 48 
Exhibit C: Violations Cited at Dealer Facilities in FYs 2006-2008 ........ 51 
Exhibit D: Additional Photos Taken During Site Reviews .................... 52 
Agency’s Response ................................................................................. 55 
Animal Care Program – Inspections of Problematic Dealers

Executive Summary
In the last 2 years, there has been significant media coverage concerning large-scale dog dealers
(i.e., breeders and brokers) 1 that failed to provide humane treatment for the animals under their
care. The breeders, negatively referred to as “puppy mills,” have stirred the interest of the
public, Congress, animal rights groups, and others. Accordingly, we conducted an audit of the
Animal and Plant Health Inspection Service’s (APHIS) Animal Care (AC) unit, which is
responsible for enforcing the Animal Welfare Act (AWA). The audit focused on AC’s
inspections of problematic dealers. It is the latest in a series of audits related to AWA. 2

In our last audit on animals in research facilities, 3 we found that the agency was not aggressively
pursuing enforcement actions against violators of AWA and that it assessed minimal monetary
penalties against them. 4 APHIS agreed to take corrective action by incorporating more specific
guidance in its operating manual to address deficiencies in enforcement actions. It also agreed to
revise its penalty worksheet to generate higher and more appropriate penalties.

In this audit, one objective was to review AC’s enforcement process against dealers that violated
AWA. Accordingly, we focused on dealers with a history of violations in the past 3 years. 5
Another objective was to review the impact of recent changes the agency made to the penalty
assessment process. We identified the following major deficiencies with APHIS’ administration
of AWA:

     •     AC’s Enforcement Process Was Ineffective Against Problematic Dealers. AC’s
           enforcement process was ineffective in achieving dealer compliance with AWA and
           regulations, which are intended to ensure the humane care and treatment of animals. The
           agency believed that compliance achieved through education 6 and cooperation would
           result in long-term dealer compliance and, accordingly, it chose to take little or no
           enforcement action against most violators.

           However, the agency’s education efforts have not always been successful in deterring
           problematic dealers from violating AWA. During FYs 2006-2008, at the re-inspection of
           4,250 violators, inspectors found that 2,416 repeatedly violated AWA, including some
           that ignored minimum care standards. Therefore, relying heavily on education for serious
           or repeat violators—without an appropriate level of enforcement—weakened the
           agency’s ability to protect the animals.

     •     AC Inspectors Did Not Cite or Document Violations Properly To Support Enforcement
           Actions. Many inspectors were highly committed, conducting timely and thorough


1
  Breeders are those that breed and raise animals on the premises; brokers negotiate or arrange for the purchase, sale, or transport of animals in
commerce.
2
  Refer to the Background section for more information on related prior audits.
3
  Audit No. 33002-3-SF, “APHIS Animal Care Program Inspection and Enforcement Activities” (September 2005).
4
  AWA refers to monetary penalties as civil penalties.
5
  APHIS synonymously used the terms violations, alleged violations, and noncompliant items in its documents. For simplicity, we used the term
violations in this report.
6
  Education was generally provided through the inspectors’ interaction with dealers during routine inspections as well as periodic seminars.


     Audit Report 33002-4-SF                                                                                                                     1
           inspections and making significant efforts to improve the humane treatment of covered
           animals. However, we noted that 6 of 19 inspectors 7 did not correctly report all repeat or
           direct violations (those that are generally more serious and affect the animals’ health).
           Consequently, some problematic dealers were inspected less frequently.

           In addition, some inspectors did not always adequately describe violations in their
           inspection reports or support violations with photos. Between 2000 and 2009, this lack of
           documentary evidence weakened AC’s case in 7 of the 16 administrative hearings
           involving dealers. 8 In discussing these problems with regional management, they
           explained that some inspectors appeared to need additional training in identifying
           violations and collecting evidence.

     •     APHIS’ New Penalty Worksheet Calculated Minimal Penalties. Although APHIS
           previously agreed to revise its penalty worksheet to produce “significantly higher”
           penalties for violators of AWA, the agency continued to assess minimal penalties that did
           not deter violators. This occurred because the new worksheet allowed reductions up to
           145 percent of the maximum penalty. While we are not advocating that APHIS assess
           the maximum penalty, we found that at a time when Congress tripled the authorized
           maximum penalty to “strengthen fines for violations,” the actual penalties were
           20 percent less using the new worksheet as compared to the worksheet APHIS previously
           used.

     •     APHIS Misused Guidelines to Lower Penalties for AWA Violators. In completing penalty
           worksheets, APHIS misused its guidelines in 32 of the 94 cases we reviewed to lower the
           penalties for AWA violators. Specifically, it (1) inconsistently counted violations;
           (2) applied “good faith” reductions without merit; (3) allowed a “no history of violations”
           reduction when the violators had a prior history; and (4) arbitrarily changed the gravity of
           some violations and the business size. AC told us that it assessed lower penalties as an
           incentive to encourage violators to pay a stipulated amount rather than exercise their right
           to a hearing.

     •     Some Large Breeders Circumvented AWA by Selling Animals Over the Internet. Large
           breeders that sell AWA-covered animals over the Internet are exempt from AC’s
           inspection and licensing requirements due to a loophole in AWA. As a result, an
           increasing number of these unlicensed breeders are not monitored for their animals’
           overall health and humane treatment.

     Recommendation Summary
     To ensure dealer compliance with AWA, AC should modify its Dealer Inspection Guide
     (Guide) to require enforcement action for direct and serious violations. We also recommend
     that “no action” be deleted as an enforcement action in the Guide.



7
  In 2008, AC employed 99 inspectors. We accompanied 19 on their inspections of dealer facilities.
8
  During this period, administrative law judges or the Department’s Judicial Officer rendered decisions in 16 cases involving dealers. We
reviewed all 16.


     Audit Report 33002-4-SF                                                                                                                2
To increase the effectiveness of inspections, AC should provide more comprehensive training
and detailed guidance to its inspectors and supervisors on direct and repeat violations,
enforcement procedures, and evidentiary requirements (e.g., adequately describing
violations).

To calculate more reasonable penalties, APHIS should limit total reductions on its penalty
worksheet to less than 100 percent. We also recommend that the agency ensure its penalty
guidelines are consistently followed and that it include instructions to count each animal as a
separate violation in cases involving animal deaths and unlicensed wholesale activities.

To prevent large breeders from circumventing AWA requirements, APHIS should propose
that the Secretary seek legislative change to exclude these breeders from the definition of
“retail pet store,” and require that all applicable breeders that sell through the Internet be
regulated under AWA.

Agency Response
In its written response, dated April 23, 2010, APHIS concurred with the reported findings
and recommendations. APHIS’ response is included at the end of this report.

OIG Position
We accept APHIS’ management decision on Recommendations 1, 2, 3, 5, 6, 7, 8, 9, 10, 12,
13 and 14. The actions needed to reach management decision on Recommendations 4 and 11
are provided in the OIG Position section after these recommendations.




Audit Report 33002-4-SF                                                                          3
Background & Objectives

Background
In 1966, Congress passed Public Law 89-544, known as the Laboratory Animal Welfare Act, to
regulate the humane care and handling of dogs, cats, and other laboratory animals. The law was
amended in 1970 (Public Law 91-579), changing the name to AWA. This amendment also
authorized the Secretary of Agriculture to regulate other warm-blooded animals when used in
research, exhibition, or the wholesale pet trade. Additional amendments to the law were passed
in 1976, 1985, 1990, 2002, and 2008—each adding new regulated activities for warm-blooded
animals.

APHIS’ AC unit enforces AWA based on the policies established by the Secretary. AC is
headquartered in Riverdale, Maryland and has regional offices in Raleigh, North Carolina and
Fort Collins, Colorado. The agency employs 99 inspectors, 9 who are dispersed throughout the
country, to conduct inspections of all licensed and registered facilities covered under AWA and
to follow up on complaints of abuse and noncompliance. In FY 2008, the inspectors conducted
15,722 inspections on licensed and registered facilities. In FY 2008, APHIS received an
appropriation of $874 million; AC’s portion was $21 million, as specified in the Consolidated
Appropriations Act.

In the wholesale pet trade, there are two types of licensed dealers: breeders (those that breed and
raise animals on the premises) and brokers (those that negotiate or arrange for the purchase, sale,
or transport of animals in commerce). In FY 2008, there were 4,604 licensed breeders and
1,116 licensed brokers.

Before AC issues a license, it conducts a pre-licensing inspection because by law applicants must
be in full compliance with AWA and regulations. After a license is issued, AC inspectors
perform unannounced inspections at least biennially to ensure the facilities remain in compliance
with AWA. If an inspector finds AWA violations, the dealer is given anywhere from a day to a
year to fix the problems depending on their severity. During our site visits, the inspectors gave
the dealers an average of 16 days to correct their violations.

After inspectors are hired, they receive 5-6 weeks initial training on animal care standards and
inspections. Thereafter, they receive annual training in the form of national or regional
conferences as well as meetings with their supervisors. To ensure the inspectors consistently
apply their training, APHIS also developed field standards, i.e., the Dealer Inspection Guide.
See table 1 for the number of inspections AC conducted during FYs 2006-2008.




9
    In FY 2008.


       Audit Report 33002-4-SF                                                                     4
                                    Table 1: Inspections Conducted in FYs 2006-2008
                                                                2006               2007                2008
                             No. of Inspectors                    99                101                 99
                            No. of Inspections*                17,978             16,542             15,722
                           Average Inspections
                                                                 182                164                 159
                              Per Inspector
                          * These numbers include inspections on all licensees (i.e., dealers and exhibitors) and
                          registrants (i.e., research facilities) under AWA.


Since 1994, AC tracked the inspections through its Licensing and Registration Information
System (LARIS). LARIS included a risk-based inspection system, which calculated the
minimum number of inspections that were needed annually based on a continual risk assessment
of each facility’s violation history. However, both our 1995 and 2005 audits found that LARIS
generated unreliable and inaccurate information. 10 AC agreed with our conclusions and hired a
contractor to develop a new system—Online Animal Care Information System (OACIS). Later,
AC determined that the OACIS contractor was not meeting the program’s requirements and
terminated the contract. APHIS then contracted with another system developer to build the
Animal Care Information System, which was implemented in March 2009.

ENFORCEMENT PROCESS

When a violation is identified during an inspection of a dealer’s facility, AWA authorizes AC to
take remedial action against the violator by assessing a fine, suspending or revoking the license,
or pursuing criminal penalties. 11 Before taking these actions, AC also considers other
enforcement options: no action, a letter of information (an informal warning letter), an official
warning letter, and an investigation. 12

Investigations are conducted by APHIS’ Investigative and Enforcement Services unit, which
carries out enforcement activities and provides support to all APHIS programs. An investigation
may result in a stipulation, suspension or revocation of license, or confiscation of animals. A
stipulation is an agreement between APHIS and the violator, where the violator can pay a
reduced penalty by giving up his right to a formal administrative hearing. APHIS’ Financial
Management Division in Minneapolis is responsible for collecting the stipulations and monetary
penalties.

Cases that warrant formal administrative action undergo Office of the General Counsel review
for legal sufficiency prior to issuance of a formal administrative complaint before the U.S.
Department of Agriculture’s (Department) administrative law judges. If the case is appealed, a
final decision is made by the Department’s Judicial Officer. Formal actions may result in license
suspensions or revocations, cease-and-desist orders, monetary penalties, or combinations of these
penalties.



10
   OIG Audit No. 33600-1-Ch, “Enforcement of the Animal Welfare Act” (January 1995) and Audit No. 33002-3-SF, “APHIS Animal Care
Program Inspection and Enforcement Activities” (September 2005).
11
   7 United States Code (U.S.C.) §2149 (January 3, 2007).
12
   Dealer Inspection Guide, ch. 9.3 (May 2002). In 2007, AC discontinued “letter of information” as an enforcement option.


     Audit Report 33002-4-SF                                                                                                       5
AWA authorizes APHIS to cooperate with the States, 13 all of which have animal cruelty laws.
However, although AC established memoranda of understanding with a few States, it did not
establish internal procedures to forward animal cruelty and abuse cases to the State officials.
Generally, AC regional management relies on the inspectors’ discretion to notify State and local
officials because the inspectors may have established relationships with these officials. Figure 1
shows which States have first-offense, subsequent-offense, or misdemeanor cruelty laws.
                                         Figure 1: States With Animal Cruelty Laws




                                                               40 States have a first-offense felony cruelty law
                                                        5 States have a subsequent-offense felony cruelty law
                                                                      5 States have a misdemeanor cruelty law


RELATED PRIOR AUDITS

This audit is the latest in a series of audits related to AC’s administration and enforcement of
AWA. Three of these audits focused on dealers and research facilities:

In 1992, OIG conducted an audit on animal care and concluded that APHIS could not ensure the
humane care and treatment of animals at all dealer facilities as required by AWA. 14 APHIS did
not inspect dealer facilities with reliable frequency, and it did not enforce timely correction of
violations found during inspections. Moreover, APHIS did not timely penalize facilities found to
be in violation of AWA.

In 1995, OIG conducted a follow-up audit and reported that APHIS did not fully address
problems disclosed in the prior report. 15 APHIS needed to take stronger enforcement actions to
correct serious or repeat violations of AWA. Dealers and other facilities had little incentive to
comply with AWA because monetary penalties were, in some cases, arbitrarily reduced and were
often so low that violators regarded them as a cost of business.


13
   7 U.S.C. §2145(b) (January 3, 2007).
14
   Audit No. 33002-1-Ch, “APHIS Implementation of the Animal Welfare Act” (March 1992).
15
   Audit No. 33600-1-Ch, “APHIS Enforcement of the Animal Welfare Act” (January 1995).


     Audit Report 33002-4-SF                                                                                       6
In 2005, OIG conducted an audit on animals in research facilities and found that the agency was
not aggressively pursuing enforcement actions against violators of AWA and that it assessed
minimal monetary penalties against them. 16 Inspectors believed the lack of enforcement action
undermined their credibility and authority to enforce AWA. In addition to giving an automatic
75-percent “discount,” APHIS offered other concessions making the fines basically meaningless.
Violators considered the monetary stipulation as a normal cost of business rather than a deterrent
for violating the law.

Objectives
Our audit objectives were to (1) evaluate the adequacy of APHIS’ controls to ensure dealer
compliance with AWA, (2) review the impact of recent changes to the penalty assessment
process, and (3) evaluate AC’s new mission critical information system for reliability and
integrity. Due to unexpected delays in implementing the new system, we were unable to
complete the third objective.




16
     Audit No. 33002-3-SF, “APHIS Animal Care Program Inspection and Enforcement Activities” (September 2005).


        Audit Report 33002-4-SF                                                                                  7
Section 1: Enforcement

Finding 1: AC’s Enforcement Process Was Ineffective Against
Problematic Dealers
During FYs 2006-2008, Animal Care’s (AC) enforcement process was ineffective in achieving
dealer compliance with the Animal Welfare Act (AWA) and regulations. This occurred because
the agency believed that compliance achieved through education and cooperation would result in
long-term dealer compliance. Accordingly, the agency chose to take little or no enforcement
actions against violators. However, taking this position against serious or repeat violators
weakened the agency’s ability to protect the animals. As a result, 2,416 of 4,250 violators
repeatedly violated AWA, including some that ignored minimum care standards, which are
intended to ensure the humane care and treatment of animals.

AWA authorizes APHIS to take remedial action against AWA violators by assessing monetary
penalties, suspending or revoking licenses, or pursuing criminal penalties. 17 The Dealer
Inspection Guide (Guide), AC’s field standards, further elaborates on these enforcement actions.

AC administers AWA through the licensing and inspection of dealers (i.e., breeders and
brokers). The enforcement process begins when violations 18 are identified during an inspection
of a dealer’s facility. If AC decides to take enforcement action, it may refer the case to APHIS’
Investigative and Enforcement Services (IES) unit. The resulting investigation can lead to a
stipulation (an agreement between APHIS and the violator, where the violator can pay a reduced
penalty by giving up his right to a formal administrative hearing), suspension or revocation of
license, or confiscation of animals. However, AC may elect to take no action or a lesser action,
such as a letter of information or an official warning. 19

During the 3-year period, AC inspected 8,289 licensed dealers and found that 5,261 violated
AWA (see exhibit C for the number and types of violations that occurred). At the re-inspection
of 4,250 violators, 20 inspectors found that 2,416 repeatedly violated AWA, including 863 that
continued to violate the same subsections.

To evaluate the adequacy of AC’s controls over dealer compliance with AWA, we reviewed
guidelines, management policies, the inspectors’ practices, and enforcement actions against
AWA violators. We identified four practices that demonstrate AC’s leniency towards dealers
that violate AWA:

     •     No Enforcement Action for First-time Violators. Typically, AC does not take
           enforcement action against first-time violators, even if the inspector identifies a direct
           violation (i.e., one that has a high potential for adversely affecting the health of an
           animal). The Guide states that inspectors “may recommend an enforcement action” for
           violations that are direct or serious, although the Guide does not define serious. 21 Based

17
   7 U.S.C. §2149 (January 3, 2007).
18
   APHIS synonymously used the terms violations, alleged violations, and noncompliant items in its documents. For simplicity, we used the term
violations in this report.
19
   Dealer Inspection Guide, ch. 9.3 (May 2002). In 2007, AC discontinued “letter of information” as an enforcement option.
20
   AC did not re-inspect 1,011 violators because some were not scheduled for re-inspection until FY 2009, while others were no longer licensed.
21
   Dealer Inspection Guide, ch. 9.3 (May 2002).


     Audit Report 33002-4-SF                                                                                                                 8
           on our observations and analysis, since inspectors were given the choice of not
           recommending an action, generally they did not.

     •     Inadequate Enforcement for Repeat Violators. The Guide states that inspectors “must
           recommend an enforcement action” for repeat violators; however, one of the choices is to
           take no action, 22 which is what the inspectors did in 52 percent of the repeat violations
           we reviewed.

           Also, AC narrowly defines a repeat violator as one that consecutively violates the same
           subsection of the animal welfare regulations. This means that on successive inspections a
           dealer can violate different sections of the regulations without being labeled a repeat
           violator and, therefore, the inspector is not required to recommend an enforcement action.

     •     Written Instructions Not Always Followed. In 2007, the national office provided
           instructions entitled, “Animal Care Enforcement Action Guidance for Inspection
           Reports,” to aid its inspectors in selecting enforcement actions. These instructions were
           never incorporated in AC’s Guide and, therefore, supervisors and regional management
           did not always ensure that the inspectors followed them. When instructions specified a
           stronger action, such as a stipulation or litigation, the inspectors were allowed to
           recommend a more lenient option.

     •     Delayed Confiscation. AWA allows APHIS to confiscate any animal found to be
           suffering as a result of a failure to comply with AWA. 23 APHIS added a provision
           requiring that the violator be given a final opportunity to take corrective action before
           confiscation can occur, 24 even in extreme cases where animals are dying or suffering. 25

To evaluate the effect of these practices, we selected 8 States and visited 50 breeders and
18 brokers (68 in total) that had been cited for at least one violation in their previous 3-year
inspection history. 26 AC generally took little or no enforcement actions against these facilities
during the period (see chart 1).




22
   Dealer Inspection Guide, ch. 9.3 (May 2002).
23
   7 U.S.C. § 2146(a) (January 3, 2007).
24
   9 Code of Federal Regulations (CFR) §2.129(a) (January 1, 2005) and Dealer Inspection Guide, ch. 8.6.1 (April 2000).
25
   AC defines suffering as “any condition that causes pain or distress . . . Examples [include]: animals with serious medical problems that are not
receiving adequate veterinary care; animals without adequate food or water; animals exposed to temperature extremes without adequate shelter or
bedding; and animals held in enclosures that are filthy. Animals do not need to be in jeopardy of dying to be in a state of suffering.” AC Policy
No. 8 (May 8, 2001).
26
   We visited a total of 81 dealers in 8 States but 13 had no history of violations and, therefore, were not part of our sample for determining the
effectiveness of AC’s enforcement process.


     Audit Report 33002-4-SF                                                                                                                     9
                       Chart 1: Enforcement Decisions for 68 Sampled Violators




The agency believed that compliance achieved through education and cooperation would result
in long-term dealer compliance. Education was generally provided through the inspectors’
interaction with dealers during routine inspections as well as periodic seminars. While we agree
that teaching dealers the skills to properly care for their animals should improve the animals’
health and wellbeing, the quality of the education depends on the inspectors’ experience and
skills. Also, the seminars were not mandated but attended voluntarily. One inspector told us the
dealers that attended the canine care classes were often not the ones that needed them.

Expecting that the dealers would improve their standards of care, the agency chose to take little
or no enforcement actions against most violators. However, education efforts have not always
been successful in deterring problematic dealers from violating AWA. Although AC might
decide on little or no actions when circumstances warrant, taking this position against serious or
repeat violators weakened the agency’s ability to ensure compliance with AWA.

During our visits, AC cited 20 of the 68 dealers for repeat violations (nearly 30 percent). The
following examples demonstrate the agency’s leniency towards violators, the ineffectiveness of
its enforcement process, and the harmful effect they had on the animals. All of the examples
below involve dealers that had a history of violations over at least three inspections before our
visit. However, the agency took little or no enforcement actions against them. During our visit,
we found 12 dealers (18 percent) with violations that had escalated to the serious or grave levels,
which directly affected the animals’ health. If AC had taken action earlier, it may have
prevented the situation from worsening.

Example 1: At a facility in Oklahoma with 83 adult dogs, AC cited the breeder for a total of
20 violations (including 1 repeat and 1 direct) during 5 inspections from April 2006 to December
2007. The direct violation concerned the lack of adequate veterinary care for three dogs with




   Audit Report 33002-4-SF                                                                       10
hair loss over their entire bodies and raw, irritated spots on their skin. 27 Despite the continuing
violations, AC did not take enforcement actions due to its lenient practices against repeat
violators.

During our visit to the facility in July 2008, AC cited the breeder for another 11 violations
(including 1 repeat and 3 directs). One of the direct violations involved a dog that had been
bitten by another dog. The first dog was left untreated for at least 7 days, which resulted in the
flesh around the wound rotting away to the bone (see figure 2).
                                                Figure 2: Live Dog With Mutilated Leg




                     The breeder admitted the dog had been in this condition for at least 7 days. The
                     inspector correctly required the dog to be taken to a local veterinarian who
                     immediately euthanized it.

AC did refer the case to IES for investigation, but only after another direct violation was
documented in a subsequent inspection after our visit. Based on the results of the investigation,
AC recommended a stipulation. However, as of early June 2009—11 months after our visit—the
violator had not yet been fined. 28

Also, although AWA states that “the Secretary is authorized to cooperate with the officials of the
various States . . . in carrying out the purpose of [AWA],” 29 AC did not establish procedures to
forward animal cruelty cases to these officials. In this case, AC did not notify the State of
Oklahoma (which has first-offense felony laws for animal cruelty) of the inhumane treatment the
dog received.


27
   After the direct violation was cited in December 2007, the inspector re-inspected the facility in January 2008 and found that the attending
veterinarian prescribed treatment for the dogs.
28
   For stipulation cases closed between October 2006 and April 2008, it took IES an average of 10 months to issue a stipulation.
29
   7 U.S.C. §2145(b) (January 3, 2007).


     Audit Report 33002-4-SF                                                                                                                     11
Example 2: At another facility in Oklahoma with 96 adult dogs, AC cited the breeder for
23 violations (including 12 repeats) during 4 inspections from August 2005 to September 2007.
Although national office instructions state, “if compliance [is] not attained quickly, proceed to
other enforcement steps,” AC could not explain why it took no enforcement action.30

During our visit to the facility in July 2008, AC cited the breeder for another 11 violations
(including 1 repeat). We found numerous dogs infested with ticks. In one case, the ticks
completely covered the dog’s body (see figure 3). The dog appeared extremely tired and stressed
and did not move, even when we approached it.
                                               Figure 3: Dog with Excessive Ticks




                    The inspector required the breeder to take only eight of the numerous infested dogs
                    to a veterinarian. 31 However, since the inspector did not identify the dogs in the
                    inspection report, it is uncertain if this dog was treated.

Although the inspector was concerned that the dogs might be anemic, she cited the ticks as an
indirect violation (i.e., not affecting the animal’s health). 32 AC referred the case to IES for
investigation. As of early June 2009—11 months after our visit—the case was still under
investigation.

Example 3: At a facility in Ohio with 88 adult dogs, AC cited the breeder for 23 violations
(including 7 repeats) during 3 inspections from August 2005 to January 2008. In July 2007, AC
sent an official warning to correct the identified care and cleanliness violations or face a “more
severe penalty.” In January 2008, AC found the same violations but, instead of imposing a more
severe penalty, sent another official warning.

30
   Animal Care Enforcement Action Guidance for Inspection Reports distributed to AC staff in 2007.
31
   According to APHIS, the inspector documented and photographed the violation for enforcement action. However, we did not observe her
taking any photos when we were there, and afterwards she could not produce them.
32
   See Finding 2 for additional information about indirect and direct violations.


     Audit Report 33002-4-SF                                                                                                             12
National instructions state that an official warning can be sent if no other enforcement action was
taken against the violator in the previous 3 years.33 In this case, the violator had received an
official warning 7 months before so a more serious action was warranted. When we asked AC
why a more serious action was not taken, regional management told us that the breeder was
making progress. Consequently, national instructions were not followed in order to give the
breeder “a reasonable opportunity” to comply with AWA.

Four months later, during our visit to the facility in June 2008, AC cited the breeder for another
9 violations (including 4 repeats). For example, a large amount of feces and urine was pooled
under the kennels producing an overpowering odor (see figure 4). The inspector recommended
no enforcement action.
                              Figure 4: Deep Pool of Feces and Urine Under Occupied Kennel




                             The breeder was cited for cleaning and sanitation violations during
                             this inspection.

Four months later, the breeder was re-inspected and cited for 4 more violations (including
3 repeats). Again, AC took no enforcement action because the violator was “making credible
progress,” as noted in AC’s “Enforcement Action Option Worksheet.”

Example 4: At a facility in Oklahoma with 219 adult dogs, AC cited the breeder for
29 violations (including 9 repeats) during 3 inspections from February 2006 to January 2007. 34
AC requested an IES investigation in May 2007. However, before the investigation resulted in
any enforcement action, the inspector conducted another inspection in November 2007 and
found five dead dogs and other starving dogs that had resorted to cannibalism. Despite these
conditions, AC did not immediately confiscate the surviving dogs and, as a result, 22 additional
dogs died before the breeder’s license was revoked.


33
   Animal Care Enforcement Action Guidance for Inspection Reports distributed to AC staff in 2007.
34
   The facility was on our original sample list. However, we did not visit it because its license was revoked before our fieldwork. We performed
a file review instead.


     Audit Report 33002-4-SF                                                                                                                 13
AWA states, “the Secretary shall promulgate . . . regulations . . . to permit inspectors to
confiscate or destroy in a humane manner any animal found to be suffering as a result of a failure
to comply with any provision of the [AWA].” 35 We asked why the dogs were not confiscated
when the inspector first found the dead and starving dogs. AC responded that its regulations
require that the violator be given an opportunity to correct the condition before any confiscation
can occur. 36

In the end, the breeder’s license was revoked and the surviving dogs were placed in new homes
within a year. However, our concern was that AC should have confiscated the dogs instead of
giving the breeder another opportunity to correct the condition. If AC had the regulatory
authority to immediately confiscate any animals in extreme cases such as this, some of the
22 additional dogs may have survived.

In summary, according to AC’s Guide, the goal of the agency’s enforcement is to gain dealer
compliance with AWA. However, some of AC’s practices weaken its ability to accomplish this.
Specifically, AC generally does not take enforcement action until a dealer is cited for repeat
violations, which are narrowly defined. The Guide also lists “no action” as an enforcement
action, which it is not. While taking no action may be reasonable at times, national guidance
does require stronger enforcement actions in more serious situations. However, AC staff did not
always follow the guidance and, consequently, many dealers were undeterred from continuing to
violate AWA. See exhibit D for more examples of dealer noncompliance with AWA.

To ensure that animals covered by AWA receive humane care and treatment, the agency should
require an enforcement action for direct and serious violations; remove “no action” as an
enforcement action; and establish controls to ensure inspectors and their supervisors follow
national enforcement action guidance in selecting the appropriate option. Also, the agency
should modify its regulations to allow immediate confiscation of suffering animals. Last, in
States that have felony laws for animal cruelty, the agency should establish procedures to refer
such cases to State government.

     Recommendation 1
     Modify the Dealer Inspection Guide to require an enforcement action for direct and serious
     violations. Also, define a serious violation in the Guide.

     Agency Response
     APHIS agrees with this Recommendation. We will provide AC employees with guidance
     regarding all enforcement action options including direct and serious Non-Compliant Items
     (NCIs) 37 drawn from OIG recommendations, Office of the General Counsel guidance, and
     legal decisions. APHIS will incorporate the requirements in a new document entitled
     “Inspection Requirements.” This document will be distributed to and discussed with AC
     employees during the AC National Meeting, April 19-22, 2010. APHIS will update the
     Dealer Inspection Guide to include the information in the “Inspection Requirements”


35
   7 U.S.C. § 2146(a) (January 3, 2007).
36
   9 CFR §2.129(a) (January 1, 2005).
37
   i.e., violations.


     Audit Report 33002-4-SF                                                                   14
document and consolidate it with the Research Facility Inspection Guide and the Exhibitor
Inspection Guide into one comprehensive document. APHIS anticipates completing the
document consolidation by September 30, 2010.

OIG Position
We accept APHIS’ management decision on this recommendation.

Recommendation 2
Remove “no action” as an enforcement action in the Dealer Inspection Guide.

Agency Response
APHIS agrees with this Recommendation. We changed the title of the “Enforcement Action
Worksheet” to “Enforcement Action Option Worksheet” and changed the flow chart title to
read “Enforcement Actions (EA) Guidance for Inspection Reports.” We modified these to
clarify that: (1) inspectors will forward to AC management a recommended EA (they believe
will be most effective in attaining compliance) for all repeats and directs and any facility
with inspection results that cause it to go from a lower frequency to High Inspection
Frequency; and (2) taking no immediate action requires Regional Director approval and a
90-day reinspection to determine if compliance was achieved or if EA is necessary. Copies
of the modified worksheet and flow chart are attached. AC will retain copies of all EA sheets
in the facility files in accordance with records retention guidelines. AC’s supervisors
verbally directed their employees to utilize the modified EA worksheet beginning on
December 1, 2009. In addition, this will be reemphasized at the National Meeting.

OIG Position
We accept APHIS’ management decision on this recommendation.

Recommendation 3
Incorporate instructions provided in the “Animal Care Enforcement Actions Guidance for
Inspection Reports” into the Dealer Inspection Guide to ensure inspectors and their
supervisors follow them in selecting the appropriate enforcement.

Agency Response
APHIS agrees with this Recommendation. We will provide AC employees with guidance
regarding all EA options to recommend to AC management drawn from OIG
recommendations, OGC guidance, and legal decisions. AC will incorporate the requirements
in a new document entitled “Inspection Requirements.” This document will be distributed
and covered for AC employees during AC’s National Meeting, April 19-22, 2010. APHIS
will update the Dealer Inspection Guide to include the information in the “Inspection
Requirements” document and consolidate it with the Research Facility Inspection Guide and
the Exhibitor Inspection Guide into one comprehensive document. APHIS anticipates
completing the document consolidation by September 30, 2010.



Audit Report 33002-4-SF                                                                     15
OIG Position
We accept APHIS’ management decision on this recommendation.

Recommendation 4
Modify regulations to allow immediate confiscation where animals are dying or seriously
suffering.

Agency Response
APHIS agrees with the intent of this Recommendation, but believes that current regulations
are sufficient to allow immediate confiscation. We believe that we can effect the intent of
the Recommendation by reviewing and clarifying the confiscation processes so that
confiscations can be accomplished with maximum speed and effectiveness. We will
distribute the clarified guidance to employees during AC’s National Meeting, April 19-22,
2010.

OIG Position
We agree with APHIS’ corrective action. However, since APHIS’ planned action differs
from OIG’s recommendation, to achieve management decision APHIS needs to provide us
with a copy of the clarified guidance on confiscation processes to demonstrate how it will
effect the intent of the recommendation.

Recommendation 5
Establish written procedures to refer animal cruelty cases to the States that have such felony
laws.

Agency Response
APHIS agrees with this Recommendation. While AWA does not give APHIS the authority
to determine if State or local animal cruelty laws have been violated, we do believe that we
should work with State and local authorities in our shared goal of eliminating animal cruelty.
APHIS will refer issues of mutual interest to appropriate local authorities who enforce State
laws and share inspection reports and EAs with several States that have State-level
enforcement capability (e.g., Colorado, Iowa, Kansas, Missouri, and Pennsylvania). AC has
modified the regional “Enforcement Action Option Worksheet” to include a check box for
inspectors to indicate whether or not they contacted local or State authorities. A copy of the
modified worksheet is attached. We will reemphasize with inspectors the need to notify
appropriate authorities who enforce State humane laws during AC’s National Meeting, April
19-22, 2010. APHIS will develop a Standard Operating Procedure to refer suspected animal
cruelty incidents to appropriate authorities that have felony laws for animal cruelty. This
document will be completed by September 30, 2010.

OIG Position
We accept APHIS’ management decision on this recommendation.


Audit Report 33002-4-SF                                                                      16
Finding 2: AC Inspectors Did Not Cite or Document Violations
Properly To Support Enforcement Actions
During their inspections of dealers, 6 of 19 inspectors did not correctly report all direct or repeat
violations, which are generally more serious and require more frequent inspections. In addition,
they did not always adequately describe violations in their inspection reports or support
violations with photos. Although inspectors are allowed to use their judgment when the Guide
does not give detailed instructions, some inspectors made poor decisions. In these cases, AC
regional management told us that the inspectors may need additional training in identifying
violations and collecting evidence. As a result, problematic dealers were re-inspected less
frequently, which placed their animals at a higher risk for neglect or ill-treatment. 38 Also,
between 2000 and 2009, the lack of documentary evidence weakened AC’s case in 7 of the
16 administrative hearings decided during the period.

AC’s Guide states that its purpose is to “provide APHIS Animal Care personnel with a clear,
concise, user-friendly reference for inspecting the facilities of USDA licensed animal dealers.
By facilitating the inspection process, the Guide will serve as a useful tool to improve the quality
and uniformity of inspections, documentation, and enforcement of the Animal Care Program.”
However, the Guide does allow inspectors to use their judgment in the decision-making
process. 39

We accompanied 19 of the 99 inspectors to observe their inspections of dealer facilities. While
many inspectors are highly committed, conducting timely and thorough inspections and making
significant efforts to improve the humane treatment of covered animals, we noted that six
inspectors did not correctly report direct or repeat violations. Also, the inspectors did not always
document violations with sufficient evidence.

DIRECT VIOLATIONS WERE NOT REPORTED CORRECTLY

The Guide defines a direct violation as one that “has a high potential to adversely affect the
health and well-being of the animal.” 40 These include: “infestation with large numbers of ticks,
fleas, or other parasites” and “excessive accumulations of fecal or other waste material to the
point where odors, disease hazards, or pest control problems exist.” In such cases, the inspector
must re-inspect the facility within 45 days to ensure that the violator has taken timely actions to
treat the suffering animals.

In contrast, an indirect violation is one that “does not have a high potential to adversely affect the
health and well-being of the animal.” 41 These minor violations include: “inadequate records”
and “surfaces not [resistant] to moisture.” In such cases, a re-inspection may not occur for up to
a year.




38
   AC uses a risk-based inspection system to determine frequency of inspections. If a dealer is not cited for direct or repeat violations, it
decreases the frequency of his inspections.
39
   Dealer Inspection Guide, ch. 1.2.1 (March 1999).
40
   Dealer Inspection Guide, ch. 7.6.1 (April 2000).
41
   Dealer Inspection Guide, ch. 7.6.1 (April 2000).


     Audit Report 33002-4-SF                                                                                                                    17
We found that 4 of the 19 inspectors incorrectly reported at least one direct violation as an
indirect. After reviewing some of the examples, AC regional management responded that the
inspectors may need additional training in identifying violations. Examples follow:

Example 1: At a breeder facility in Oklahoma with 96 adult dogs, we observed numerous dogs
infested with ticks. One dog’s face was covered with ticks (see figure 5). 42
                                                Figure 5: Dog Covered with Feeding Ticks




                        The inspector required the breeder to take only eight of the infested dogs to a
                        veterinarian. However, she did not identify the dogs in the inspection report or
                        require documentation of the treatment. Therefore, we were not able to determine
                        what happened to this dog.
The inspector reported the ticks as an indirect violation, even though excessive ticks are
classified as a direct violation in AC’s Guide. 43 The inspector told us that “without doing a
physical exam on the dogs, it would be hard to tell exactly how detrimental the ticks were.”
Even so, she reported that some of the dogs “have enough ticks to be concerned about their
hematocrit [a red blood cell ratio indicating anemic conditions].”

When we showed figure 5 to a senior veterinarian at AC’s national office and the western
regional director, they disagreed with the inspector’s judgment of the violation. Both stated that
it should have been reported as a direct violation in the inspection report.

Several months later, we asked for the treatment records to determine if the tick-infested dogs
had received appropriate care, since AC’s policy states that “every facility is expected to have a
system of health records sufficiently comprehensive to demonstrate the delivery of adequate


42
     See figure 3 in finding 1 for another dog in this facility with ticks completely covering the dog’s body.
43
     Dealer Inspection Guide, ch. 7.6.1 (April 2000).


        Audit Report 33002-4-SF                                                                                  18
health care . . . [including] dates and other details of all treatments.” 44 The inspector told us she
could not require the records because AC “cannot enforce policy” and current regulations do not
require breeders to keep them.

We found that although AWA and AC regulations are silent on treatment records, they do
require adequate veterinary care; 45 without these records, the inspector cannot determine if a
violator corrected the problem. We also noted that this inspector had required such records at
other facilities, as did other inspectors we travelled with.

Last, the inspector did not identify the specific animals in her inspection report. According to
APHIS, the inspector documented and photographed the violation for enforcement action.
However, we did not observe her taking any photos when we were there and she could not
subsequently produce them. Without the documentation, it would be impossible to identify the
animals during re-inspection to determine if they were treated or just disposed of.

Example 2: At a broker facility in Oklahoma with 525 adult dogs, we observed and the
inspector reported “an excessive number of insects/ cockroaches” crawling on walls, the floor,
and the ceiling. Food bowls were also infested with dead and live cockroaches (see figure 6).
                                                Figure 6: Cockroach-Infested Food




                             The inspector required the broker to correct the contaminated food
                             within 5 days. However, by not designating this as a direct
                             violation, the inspector will not know if the correction occurred
                             since she will not return for a re-inspection for a year.

The inspector cited the violation as an indirect, even though contaminated feed and heavy vermin
infestation in storage or feeding area are classified as direct violations in the Guide. 46 She told
us that “cockroaches in the feed [do not necessarily pose] immediate health concerns . . . animals


44
   AC Policy No. 3 (July 17, 2007).
45
   7 U.S.C §2143(a) (January 3, 2007) and 9 CFR §2.40 (January 1, 2005).
46
   Dealer Inspection Guide, ch. 7.6.1 (April 2000).


     Audit Report 33002-4-SF                                                                        19
can eat cockroaches and other bugs with no harm observed to their health.” The inspector’s
supervisor supported the inspector’s assessment.

We contacted the directors of the Shelter Medicine Programs at three veterinary schools in
California, Massachusetts, and New York to determine if the above situation constituted a direct
violation. 47 All three directors disagreed with AC’s conclusion. The director of the Shelter
Medicine Program at the University of California at Davis told us that “cockroaches have been
linked to transmission of [parvovirus and] Salmonella and could be a physical . . . carrier of the
disease. While it might not be harmful for the animals to eat a bug on occasion, having such a
number of cockroaches in a food container (and in the environment generally) would potentially
spread serious diseases . . . constituting a threat not only for animals but also for humans.”

The AC supervisor told us that if several inspectors evaluated the same situation, some would
document the violation as a direct and others would not. This demonstrates AC’s lack of
standardization on how animals and violators are treated. To ensure that inspectors cite direct
violations consistently, AC should provide more detailed guidance on direct violations and
provide more training to the inspectors in identifying them.

Example 3: At a breeder facility in Arkansas with about 100 adult dogs, we observed an
excessive accumulation of fecal or other waste material in the drainage between two animal
enclosures with overpowering odor (see figure 7).

The inspector did not cite this as a violation—either direct or indirect—even though excessive
accumulations of fecal or other waste material are classified as a direct violation in the Guide. 48
He told us that the build-up of waste was outdoors and “although the build-up in the drain was
unsightly and odorous, there was no evidence that it was affecting the animals adversely.” The
inspector’s supervisor agreed with the citation.

The director of the Shelter Medicine Program at the University of California at Davis told us that
“dogs’ feces carry bacteria, protozoa and parasites that can constitute a threat to dogs and
humans. This is especially true if the feces are allowed to remain in the environment for greater
than 12-24 hours, allowing harmful infectious agents to mature to the point that they can be
spread (e.g., coccidia, which can cause severe disease in puppies).” The director also stated that
it could be worse outdoors because “diseases are more likely to be spread through insects in an
outdoor environment.”




47
   Shelter Medicine Programs advise and educate animal shelters, which are similar to kennels since they care for large numbers of animals in an
enclosure, on the proper handling and care of the animals.
48
   Dealer Inspection Guide, ch. 7.6.1 (April 2000).


     Audit Report 33002-4-SF                                                                                                                 20
                                        Figure 7: Excessive Accumulation of Feces and Urine




                           The inspector cited the breeder for failure to clean and sanitize the kennel,
                           although this area was not included in the citation. Because the breeder was
                           not cited for any direct violations, the inspector will not return for a re-
                           inspection for a year.

In conclusion, by incorrectly reporting direct violations as indirects, AC re-inspected the
violators less frequently, leaving the animals at a higher risk for neglect, illness, and ill-
treatment.

REPEAT VIOLATIONS WERE NOT REPORTED CORRECTLY

The Guide defines a repeat violation as “a noncompliance cited on the previous inspection or
previous consecutive inspections, which has not been corrected, and/or a new noncompliance of
the same . . . subsection cited [in] the previous inspection.” 49 We found that 4 of the
19 inspectors did not follow the Guide in reporting repeat violations. 50

Example 4: At a facility in Oklahoma with 55 adult dogs, an inspector cited the breeder for
21 violations during 4 inspections from October 2005 to June 2008. One inspection identified a

49
     Dealer Inspection Guide, ch.7.3 (April 2000).
50
     Two of the inspectors were among the four that did not correctly cite direct violations.


        Audit Report 33002-4-SF                                                                            21
violation involving broken wires in pens that needed repair. The next inspection identified
sagging wire flooring that needed repair. While both violations fell under the same regulatory
subsection 51 —unsafe structures in primary enclosures—the inspector did not report the second
as a repeat because the violations were not exactly the same.

We asked the regional directors to comment on what constitutes a repeat violation. The western
regional director confirmed that violations with the same citation should be considered repeats.
He also stated if the inspectors do not properly identify repeat violations, then they may need
more training. The eastern regional director added that in some cases the inspectors need to use
their judgment because some subsections are very broad and require interpretation. In this
example, however, we believe the citations were very similar and did not require interpretation.

AC requires that enforcement actions be taken against repeat violators. By failing to correctly
report a repeat violation, enforcement action may be delayed and future inspections may be less
frequent.

VIOLATIONS WERE NOT SUFFICIENTLY DOCUMENTED

In our evaluation of the enforcement process, we reviewed all administrative hearings related to
licensed dealers between 2000 and 2009. We found that in 7 of the 16 decisions, the
administrative law judges (ALJ) or the Department’s Judicial Officer (JO) dismissed part of the
violations because of insufficient evidence, including inadequate description of the violation,
lack of photo evidence, etc. In one case, the ALJ stated that APHIS “failed to prove the
significant majority of the violations.” As a result, the ALJ reduced the violator’s fine from
$25,000 to $2,500. 52 (See finding 3 for additional discussion on this case and others.)

We reviewed the inspection reports for our sampled facilities and found that
the 19 inspectors did not always document their inspections with sufficient evidence, as
discussed below.

Example 5: We found that photos were not always taken when necessary, even though APHIS
issues digital cameras to the inspectors as part of their field equipment. The Guide states that
photos should be taken when a violation may result in an enforcement action (or case). 53
Therefore, the inspectors only took photos, although not always, when their inspections
identified a repeat or direct violation since it is these violations that may result in an immediate
enforcement action.

However, even first violations may eventually be used to support an enforcement action and
should be supported with photos, whenever possible. For example, if a direct violation results in
an ALJ case, AWA allows that all prior violations (including non-repeat and indirect) be
considered in the calculation of a penalty. Most likely, these non-repeat or indirect violations
were not photographed and may not be sufficiently supported to be included in the case. In an




51
   9 CFR §3.6 titled “Primary enclosures, General requirements” (January 1, 2005).
52
   Karen Schmidt, AWA Docket No. 03-0024.
53
   The Guide does not require photos to be taken for all violations. This lack of evidence may weaken APHIS’ cases in future hearings.


     Audit Report 33002-4-SF                                                                                                             22
ALJ decision dated March 7, 2006, the ALJ dismissed six violations in part because there was a
lack of photo evidence. 54

Example 6: We found some inspectors did not adequately describe some violations in
inspection reports. At one facility in Oklahoma, the inspector cited the breeder for inadequate
floor space. Although her report stated “several dogs are kept in kennels that are not large
enough to satisfy their space requirements,” the inspector provided no further details. This lack
of documentation may impact future litigation. In a prior ALJ case, when the Department
similarly charged another breeder, the ALJ ruled in favor of the breeder stating “without any
documentation as to the size of the shelters in the pen, a determination as to their adequacy
cannot be made.” 55

In summary, the issues and examples discussed above seriously impacted APHIS’ ability to
enforce AWA. Using their own judgment, some inspectors did not always report direct or repeat
violations correctly according to the Guide and did not always document violations with
sufficient evidence. When we discussed this issue with the agency, both the deputy
administrator and the western regional director generally agreed that the inspectors should be
provided more training. In particular, the deputy administrator suggested additional training in
shelter medicine and animal abuse.

To correct these deficiencies, we agree that APHIS should provide more comprehensive training
and detailed guidance to its inspectors and supervisors on direct and repeat violations,
enforcement procedures, evidentiary requirements (e.g., adequately describing violations),
shelter medicine, and animal abuse. Also, the agency should revise the Guide to require photos
for all violations that can be documented in this manner.

       Recommendation 6
       Provide more comprehensive training and detailed guidance to the inspectors and supervisors
       on direct and repeat violations, enforcement procedures, evidentiary requirements (e.g.,
       adequately describing violations), shelter medicine, and animal abuse.

       Agency Response
       APHIS agrees with this Recommendation. We have provided training for all inspectors on
       identifying direct and repeat NCIs and adequately describing NCIs, during fall 2009
       meetings between supervisors and their inspector teams. We will provide additional training
       and guidance (i.e., the “Inspection Requirements” document) to AC’s inspectors and
       supervisors on identifying direct and repeat NCIs, adequately describing NCIs, enforcement
       procedures, and common medical conditions seen at commercial kennels during AC’s
       National Meeting, April 19-22, 2010. In addition, we will provide a training session on
       shelter medicine at the National Meeting. We will develop a comprehensive technical
       training plan through the Center for Animal Welfare by November 30, 2010.




54
     Karen Schmidt, AWA Docket No. 03-0024.
55
     Karen Schmidt, AWA Docket No. 03-0024.


       Audit Report 33002-4-SF                                                                  23
OIG Position
We accept APHIS’ management decision on this recommendation.

Recommendation 7
Revise the Dealer Inspection Guide to require photos for all violations that can be
documented in this manner.

Agency Response
APHIS agrees with this Recommendation. Our current guidance calls for photographs of:
direct NCIs; repeat NCIs; NCIs that may result in EA or an investigation; NCIs that are
additional information for ongoing investigations; and transportation violations. In addition,
our guidance states that inspectors may choose to take photographs in other circumstances.
We will modify our guidance to add NCIs documented on the third prelicense inspection and
NCIs documented on inspections that may be appealed. We will reemphasize with inspectors
when to take photographs. We will incorporate this information in the new “Inspection
Requirements” document, and distribute it to employees during the AC National Meeting,
April 19-22, 2010. APHIS will update the Dealer Inspection Guide to include the
information in the “Inspection Requirements” document and consolidate it with the Research
Facility Inspection Guide and the Exhibitor Inspection Guide into one comprehensive
document. APHIS anticipates completing the document consolidation by September 30,
2010.

OIG Position
We accept APHIS’ management decision on this recommendation.




Audit Report 33002-4-SF                                                                    24
Section 2: Stipulations

Finding 3: APHIS’ New Penalty Worksheet Calculated Minimal
Penalties
Although APHIS previously agreed to revise its penalty worksheet to produce “significantly
higher” penalties for violators of AWA, the agency continued to assess minimal penalties for the
majority of its stipulation cases. This occurred because the new worksheet allowed reductions
up to 145 percent of the maximum penalty. As a result, APHIS continued to assess monetary
penalties that were inadequate to deter violators. For the 94 stipulation cases we reviewed,
APHIS imposed penalties totaling $348,994, nearly 20 percent less than the $434,078 calculated
using the old worksheet.

Congress authorized APHIS to enforce AWA and assess monetary penalties to “any dealer,
exhibitor, research facility . . . that violates any provision of this chapter, or any rule, regulation
or standard promulgated by the Secretary.” 56 For our sample cases, the maximum penalty
ranged from $2,750 to $3,750.

IES, in conjunction with AC, developed a worksheet to calculate penalties for violators. The
overall goal for this worksheet was “to discourage dealers [and others] from violating the Act.” 57
In our prior audit report, we found that IES reduced the amount of the penalties for several
factors (e.g., gravity of violations, size of business, etc.) authorized by AWA. 58 After making
these adjustments, IES further reduced the penalties by 75 percent, an automatic reduction
applied universally to all penalties, as an incentive for violators to pay the stipulation and thereby
forego a hearing. However, this lowered penalties to such an extent that violators considered
them a normal cost of business. We concluded that the resulting penalties were ineffective
deterrents and APHIS agreed to develop a new penalty worksheet.

In April 2006, APHIS implemented a revised worksheet with two significant changes: adding a
“good faith” factor 59 and changing the automatic reduction from 75 to 50 percent, as shown in
figure 8.

During the management decision process, 60 APHIS officials explained that “the new [worksheet]
results in significantly higher stipulations than have previously been issued for similar violations.
This has not only been seen in current cases, but also in a number of previous cases that the team
used to Beta-test the new penalty [worksheet].” 61 They provided two sample cases, which
corroborated their explanation. 62



56
   7 U.S.C. §2149(a) and 2149(b) (January 1, 2007).
57
   “Determining Penalties under the Animal Welfare Act,” pg. 2 (April 2006).
58
   OIG Audit No. 33002-3-SF, “APHIS Animal Care Program Inspection and Enforcement Activities” (September 2005).
59
   Authorized by 7 U.S.C. §2149(b) (January 1, 2007). AC defines good faith as “compliance with standards of decency and honesty” and
“sincere integrity in profession and performance.” For purposes of AWA, a person who shows good faith “may be: willing to comply and correct
violations; have animals that are in good health that do not suffer as a result of the violations, and; cooperative with IES and AC.”
60
   Management decision is the agency's evaluation of the findings, recommendations, and monetary results in an audit report and its issuance of a
proposed decision in response to such findings and recommendations, including any corrective actions determined to be necessary.
61
   Memorandum dated September 21, 2006.
62
   During this audit, we asked APHIS for the entire sample. The agency was unable to provide this information.


     Audit Report 33002-4-SF                                                                                                                 25
              Figure 8: New Worksheet with Good Faith and Automatic 50-percent Penalty Reduction




NEW WORKSHEET REDUCED PENALTIES

To review the impact of APHIS’ changes to the penalty assessment process since our last audit,
we compared the penalties using both the old and the new worksheets for all 94 stipulation cases
closed between October 2006 and April 2008. 63 We found:

     •     In 53 cases, the penalties were lower using the new worksheet than they would have been
           using the old worksheet (see chart 2); in 6 other cases, the penalties were the same.

     •     In 12 of the 53 cases, the reductions decreased the penalties to such an extent (up to
           145 percent of the maximum penalty) that they initially resulted in a negative number. In
           these cases, APHIS arbitrarily changed and inconsistently applied minimum penalties.

The stipulations assessed by APHIS between October 2006 and April 2008 totaled $348,994.
We recalculated the penalties with the old worksheet and found that the stipulations would have
been $434,078. Instead of assessing “significantly higher stipulations,” APHIS lowered the
violators’ penalties by $85,084—a 20-percent decrease.

For one breeder, APHIS imposed a penalty for numerous violations including inadequate
veterinary care, feeding, watering, and cleanliness. Due to excessive reductions allowed by the
new worksheet, the breeder’s penalty was 97 percent lower than if calculated using the old
worksheet. Moreover, the reductions were so excessive that in 12 of 94 cases (13 percent), the
worksheet generated a negative stipulation. When this occurred, the agency issued a minimum
stipulation.




63
  To determine the impact of recent changes to the penalty worksheet, we continued to review stipulations because they were the focus of our last
audit. Since APHIS issued its new worksheet and revised penalty guidelines in April 2006, we selected cases after FY 2006 to give the agency
time to implement the changes.


     Audit Report 33002-4-SF                                                                                                                 26
                     Chart 2: Comparison of Penalties Using Both Old and New Worksheets




During a 14-month period, IES lacked controls over the minimum stipulation amount in that it
changed four times, as shown in table 2.
                         Table 2: Penalties Calculated with the New Penalty Worksheet
                                                                                           Minimum
          Case       Stipulation     No. of       Maximum            Stipulation
                                                                                           Stipulation
          No.           date       Violations     Penaltiesa      Recommendationb
                                                                                             Issued
            1           8/25/06         9              $25,750                 ($231)         $250
            2           10/4/06        16              $55,000                 ($325)         $200
            3          10/13/06        14              $46,500               ($1,163)         $200
            4           11/8/06        44             $165,000              ($24,469)         $250
            5          11/22/06         7              $26,250                 ($937)         $250
            6            2/8/07         7              $26,250               ($2,906)         $250
            7            8/3/07         1               $3,750                 ($281)         $275
            8            8/6/07        31              $97,500              ($11,344)         $250
            9           8/30/07         2               $5,500                 ($412)         $250
           10           9/28/07         5              $18,750                 ($469)         $250
           11           10/2/07        15              $56,250               ($1,406)         $250
           12          10/19/07         2               $7,500                 ($188)         $250
                a.   These amounts were calculated by multiplying the number of violations by the
                     maximum penalty authorized.
                b.   These amounts were calculated by applying so many reductions that the stipulations
                     became a negative number.

We inquired why IES used different minimums. In March 2009, IES’ chief of Enforcement and
Operations Branch stated, “it is not possible to glean from the email exchanges between the
enforcement specialist and the program official why [this occurred].” Other IES officials also
had no explanation about how the different minimums were calculated for the cases.


   Audit Report 33002-4-SF                                                                                27
Based on the discussion above, we concluded that APHIS should limit total penalty reductions
on its new worksheet to less than 100 percent and establish a minimum stipulation amount to be
consistently applied.

CONGRESS INCREASED MAXIMUM PENALTIES

Since 1970, Congress and the Department have steadily increased the maximum penalty amount
for AWA violations (see chart 3). 64 The most recent increase was an unprecedented $10,000 per
violation, as implemented by the 2008 Farm Bill. 65 The House Committee on Agriculture stated
that this increase was to “strengthen fines for violations of the Animal Welfare Act.”66
                   Chart 3: Maximum Penalties Authorized vs. Average Actual Penalties Assessed




While Congress and the Department continued to increase the maximum penalty, the average
penalties actually assessed by APHIS represented less than 10 percent of the maximum. 67 Lower
penalties could be an indication that the violations were all minor or insignificant; however, we
found that this was not the case. Serious violations (e.g., those that compromise animal health)
and grave violations (e.g., those that directly harm animals) made up nearly 60 percent of all
violations from October 2006 to April 2008.

APHIS CONTENDS THAT ASSESSED PENALTIES ARE APPROPRIATE

We inquired why the new worksheet did not produce the higher penalties that the agency
previously told us it would. APHIS officials responded that there is no requirement to impose
the statutory maximum penalty for violations. We agree and we are not advocating that APHIS
assess the maximum penalty. However, as previously stated, we do recommend that APHIS
issue more reasonable stipulations by limiting total penalty reductions on its new worksheet to
less than 100 percent.

64
   From 1970 to 2009, USDA approved two increases to account for inflation; Congress authorized two significant increases that totaled two and
a half times the previous maximum amount.
65
   Public Law 110-246, Sec. 14214 (June 18, 2008). The increased maximum penalty did not apply to the cases we analyzed.
66
   The Fact Sheet for the Conference Report—2008 Farm Bill Miscellaneous Title.
67
   For 2006, we used actual data from IES’ annual report. For 2007 and 2008, we averaged the actual stipulation amounts from the 94 cases.


     Audit Report 33002-4-SF                                                                                                               28
In addition, APHIS stated that stipulations increased using the new worksheet. To support this,
the agency compared the average stipulation before our 2005 audit report to the average
stipulation after our 2005 audit report. However, the agency did not consider factors that
affected the average stipulation, such as the gravity of violations, size of business, violation
history, and increases in the authorized maximum penalty.

To determine the impact of these factors, we reviewed stipulation cases collected for our 2005
audit 68 and found: (1) the violations after 2005 were more serious than those in earlier years; 69
(2) the size of business of the violators after 2005 was larger; 70 (3) more violators after 2005 had
a violation history; 71 and (4) the maximum penalty increased since our last audit. 72 Since the
above factors increased stipulations, we disagree that stipulations increased because of the new
worksheet.

Finally, APHIS stated that OIG recommended it produce higher penalties without regard to
penalty precedent established by the courts, which is binding on APHIS. It also stated that the
JO routinely imposes a fraction of the statutory maximum penalty even for the most egregious
violations.

APHIS’ legal proceedings were not the focus of our audit. However, to validate APHIS’
statement, we reviewed the seven cases the agency provided. We found:

     •     In three cases, the JO imposed the same or almost the same penalty that APHIS asked
           for. 73

     •     In three other cases, the JO reduced the civil penalty because APHIS either did not
           provide sufficient evidence or used the wrong maximum penalty amount. 74

     •     In the last case, the JO did not impose a penalty because he found that AWA and the
           regulations were ambiguous on the issue. 75

In 1995 and again in 2005, we reported that the monetary penalties were often so low that
violators regarded them as a cost of business and that APHIS reduced the stipulations making
them basically meaningless. In our current audit, we found that this problem has not yet been
corrected. APHIS continues to impose negligible stipulations by applying excessive reductions
(up to 145 percent) to the maximum penalties. To correct this on-going problem, the agency
needs to issue stipulations that will serve as a better deterrent for encouraging violators to
comply with the law.


68
   We reviewed 77 of 197 cases closed from 2002 to 2004, the sample selected during our last audit.
69
   Serious and grave violations made up nearly 60 percent of all violations in our sample after 2005, whereas serious and grave violations only
accounted for 11 percent of cases before 2005.
70
   Large businesses made up 30 percent of all violators in our sample after 2005, whereas large businesses only accounted for 13 percent of cases
before 2005.
71
   Over 38 percent of the violators had a violation history in our sample after 2005, whereas only 26 percent of the violators had a violation
history of cases before 2005.
72
   The maximum penalty increased from $2,750 to $3,750 in 2005, a 37 percent increase.
73
   Marilyn Shepherd, AWA Docket No. 05-0005, Lorenza Pearson, AWA Docket Nos. 02-0020 and D-06-0002, and Jewel Bond, AWA Docket
No. 04-0024.
74
   Martin Colette, AWA Docket No. 03-0024, Jerome Schmidt, AWA Docket No. 05-0019, and Karen Schmidt, AWA Docket No. 03-0024.
75
   Daniel Hill, AWA Docket No. 06-0006


     Audit Report 33002-4-SF                                                                                                                  29
        Recommendation 8
        Limit total penalty reductions on the new worksheet to less than 100 percent.

        Agency Response
        APHIS agrees with this Recommendation. We will develop and implement a new worksheet
        which limits total penalty reductions to less than 100 percent by September 30, 2010.

        OIG Position
        We accept APHIS’ management decision on this recommendation.

        Recommendation 9
        Establish a methodology to determine a minimum stipulation amount and consistently apply
        that amount, when appropriate.

        Agency Response

        APHIS agrees with this Recommendation. We will formally document the “minimum
        stipulation amount” in the “Determining Penalties Under the Animal Welfare Act” document
        by September 30, 2010.

        OIG Position

        We accept APHIS’ management decision on this recommendation.

Finding 4: APHIS Misused Guidelines to Lower Penalties for AWA
Violators
In completing penalty worksheets, APHIS misused guidelines in 32 of the 94 cases we reviewed
to lower the penalties for AWA violators. Specifically, it (1) inconsistently counted violations;
(2) applied “good faith” reductions without merit; (3) allowed a “no history of violations”
reduction when the violators had a prior history; and (4) arbitrarily changed the gravity of some
violations and the business size. APHIS assessed lower penalties as an incentive to encourage
violators to pay a stipulated amount rather than exercise their right to a hearing. As a result,
APHIS did not consistently assess penalties among violators, which led to some violators not
receiving their full penalty according to APHIS’ guidelines.

Under AWA, “each violation and each day during which a violation continues shall be a separate
offense.” However, APHIS “shall give due consideration to the appropriateness of the penalty
with respect to the size of the business, . . . the gravity of the violation, the person’s good faith,
and the history of previous violations.” 76 Based on prior ALJ and JO decisions, APHIS’




76
     7 U.S.C. §2149(b) (January 1, 2007).


        Audit Report 33002-4-SF                                                                    30
Monetary Penalty Action Team established guidelines in 2006 that elaborated on the use and
amount of penalty reductions. 77

After AC completes an inspection and considers enforcement action against a violator, it may
request an IES investigation generally depending on the severity of the violations. If the
investigation confirms the violations, AC may request that a stipulated (i.e., compromised)
penalty be offered to the violator, who in return gives up his right to a hearing. IES, in
coordination with AC, calculates the penalties while allowing reductions consistent with those
listed in AWA.

In 32 of the 94 stipulation cases closed from October 2006 to April 2008, we found that APHIS
misused guidelines in completing the penalty worksheet. (Since some individual cases contained
multiple errors, the following add up to more than 32 cases.)

     •    In 18 cases involving animal deaths or unlicensed wholesale activities, APHIS used a
          smaller number of violations than the actual number.

     •    In 13 cases, APHIS applied a 50-percent or 25-percent good faith penalty reduction
          without supporting evidence or with contradictory evidence.

     •    In 22 cases, APHIS applied a penalty reduction, established for violators with no prior
          violation history, to violators that had a prior history.

     •    In 1 case, APHIS arbitrarily reduced the gravity of some violations and the size of the
          business from what was originally reported on the penalty worksheet.

We concluded that APHIS applied these penalty reductions without merit for the purpose of
lowering penalties. AC regional management told us that they wanted to assess penalties that the
violators would agree to pay rather than exercise their right to a hearing.

VIOLATIONS INCONSISTENTLY COUNTED

In our prior audit report, we recommended that APHIS calculate penalties on a per animal basis,
as appropriate. 78 In September 2006, APHIS’ prior Administrator agreed stating, “the criteria
for total number of violations is calculated on a ‘per animal, per day’ basis.” 79 Our review of the
94 cases disclosed that APHIS used this criterion only in cases involving animal deaths or
unlicensed wholesales. However, because APHIS did not include the “per animal” part in its
guidelines, this practice was not consistently followed, as discussed below.

In five cases involving animal deaths, APHIS calculated penalties based on one violation even
though multiple animals died in each case. For example, in 2006 an airline company transported
eight puppies from Europe to New York. Five puppies died because they were not adequately
fed or hydrated. APHIS cited the violator for one grave violation for the deaths of the five



77
   “Determining Penalties Under the Animal Welfare Act” (April 2006).
78
   OIG Audit No. 33002-3-SF “APHIS Animal Care Program Inspection and Enforcement Activities” (September 2005).
79
   Memorandum from the Administrator to the Assistant Inspector General (September 21, 2006).


     Audit Report 33002-4-SF                                                                                      31
puppies. However, considering previous ALJ and JO decisions, APHIS should have counted
each dead animal as a grave violation. 80

In 13 cases involving unlicensed wholesales, 81 APHIS calculated penalties for unlicensed
breeders based on the day the violation occurred even though multiple animals were sold each
day. For example, an unlicensed breeder in Indiana sold a total of 19 puppies on 2 separate dates
to a pet store. APHIS cited the violator for two violations, one for each date of occurrence
instead of one for each animal.

Further, the penalties for wholesaling without a license were so low that in some cases, there was
no incentive to be licensed. The penalties represented only a fraction of the amount that the
violator would have paid in license fees. As a result, in addition to avoiding inspections, the
violator had a financial advantage by not being licensed. For example, an unlicensed breeder in
South Dakota was caught wholesaling 24 puppies from 2004 to 2006. APHIS imposed a
stipulation of $200. The license fee for the 3-year period would have been $695—more than
three times the amount of the stipulation.

We also found many cases where IES calculated the penalty two ways—one on a “per animal”
basis and the other on “date of occurrence”—allowing AC regional management to choose the
one that they believed the violators would pay. However, guidelines should sufficiently detail
exactly how penalties are to be calculated. Given a set of circumstances, the worksheet should
generate only one penalty amount, regardless of the violators’ willingness to pay.

GOOD FAITH PENALTY REDUCTION

As discussed in the previous finding, APHIS revised the penalty worksheet by adding a good
faith factor. Good faith is defined in the guidelines as “a person who shows good faith may be
willing to comply and correct violations; have animals that are in good health that do not suffer
as a result of the violations. . . . In contrast, [a person who] lacks good faith may: have repeat
violations . . . engage in regulated activity after having surrendered their license or after being
notified of the Act’s licensing requirements.” 82

If the violator demonstrates good faith, APHIS reduces the statutory maximum on the penalty
worksheet by 50 percent. If the violator demonstrates a lack of good faith, a penalty reduction is
not applied. However, APHIS established a third penalty reduction—25 percent—which it gives
to the majority of violators that are unable to show either evidence of good faith or a lack of it—
no evidence either way.

We found 13 cases where the agency applied a 50-percent or 25-percent good faith penalty
reduction without merit. Two examples are:

     •     At a facility in Tennessee, AC cited 22 violations, some of which caused animal deaths.
           When AC re-inspected the facility 5 months later, the inspector cited 12 more violations,


80
   “Consistent with established Department policy, when a regulated entity fails to comply with the Act, the regulations, or the standards, there is
a separate violation for each animal consequently harmed or placed in danger.” (Delta Airlines, Inc. 53 Agric. Dec. 1076 (1994)).
81
   AWA requires wholesale pet breeders to be licensed (7 U.S.C. §2133, January 1, 2007).
82
   “Determining Penalties Under the Animal Welfare Act,” pg. 4 (April 2006).


     Audit Report 33002-4-SF                                                                                                                     32
           4 of which were repeats that caused additional deaths. 83 In a letter dated July 3, 2007, the
           regional director stated that “we have no evidence of good faith.” Nonetheless, when
           APHIS calculated the penalty for all 34 violations, the violator received a 50-percent
           good faith penalty reduction. We concluded that the violator had actually displayed a
           lack of good faith by not correcting previous violations that caused the additional deaths.

     •     One licensed breeder in Ohio, with no veterinary qualifications, operated on a pregnant
           dog without anesthesia; the breeder delayed calling a veterinarian and the dog bled to
           death. The inspector also found that 40 percent of the dogs in the kennel were blind due
           to an outbreak of Leptospirosis. 84 The inspector determined that the facility’s water was
           contaminated and had caused the outbreak.

           Guidelines state that “a person who shows ‘good faith’ . . . [has] animals that are in good
           health that do not suffer as a result of the violations . . .” 85 Despite the lack of good faith
           demonstrated by the breeder, APHIS applied a 25-percent good faith penalty reduction to
           lower the penalty. Four months later, a subsequent inspection continued to document
           violations at the facility. The inspector reported that “this is a veterinary care issue that
           continues to be a serious problem—failure to provide adequate veterinary care for over
           200 adult dogs.”

HISTORY OF VIOLATIONS

A history of violations is defined as a previous violation of AWA or a “pattern of ongoing
violations.” 86 When there is no prior history of violations, the guidelines allow a 25-percent
penalty reduction.

We found that in 22 cases, APHIS allowed a 25-percent reduction of the maximum penalty
amounts for “no prior history of violations,” even though the violators had a prior history of
violations, as shown in the IES tracking system or through our review of the case files. Two
examples are:

     •     A breeder in Ohio with about 62 adult dogs was cited for 1 minor, 16 significant, and
           12 serious violations during 5 inspections between 2005 and 2006. The violations
           included the breeder’s failure to inform his attending veterinarian that some of his dogs
           delivered dead puppies, which is important if the puppies died of a disease like
           Brucellosis. 87 The breeder was also cited for administering medications to his dogs
           without his attending veterinarian’s knowledge. Although the breeder was issued an
           official warning in 2005 for numerous violations including inadequate veterinary care,
           APHIS gave him a 25-percent penalty reduction in 2007 for “no prior history of
           violations.”

83
   The agency incorrectly used 32 violations on the worksheet when the settlement agreement, which was sent to the breeder, showed 34.
84
   This is a bacterial disease that affects animals as well as humans and causes damage to the inner lining of blood vessels. The liver, kidneys,
heart, lungs, central nervous system, and eyes may be affected.
85
   “Determining Penalties Under the Animal Welfare Act,” pg. 4 (April 2006).
86
   “Determining Penalties Under the Animal Welfare Act,” pg. 5 (April 2006).
87
   This is an infectious bacterial disease, which is spread through contact with aborted fetuses and discharges from the uterus of infected bitches,
during mating, through maternal milk, and possibly through airborne transmission in some cases. The bacteria enter the body through mucous
membranes and spreads from there to lymph nodes and the spleen. It also spreads to the uterus, placenta, and prostate gland as well as other
internal organs at times.


     Audit Report 33002-4-SF                                                                                                                      33
        •     An unlicensed breeder in Indiana with 200 adult dogs received an official warning in
              2002 for wholesaling to pet stores. In 2006, the breeder (still unlicensed) was found
              wholesaling puppies to a pet store in Florida. When calculating the penalty for this
              violation, APHIS gave the breeder a 25-percent “no history of violations” penalty
              reduction, even though the breeder had received an official warning in 2002.

GRAVITY OF VIOLATIONS AND SIZE OF BUSINESS

AWA also allows APHIS to consider the gravity of violations and size of a business when
determining a penalty. However, we found one case where APHIS arbitrarily reduced the
gravity of the violations and the size of the business in order to lower the violator’s penalty. A
broker in North Carolina knowingly purchased puppies from an unlicensed breeder and failed to
ensure that the puppies were at least 8 weeks old at the time of purchase. Both are considered
serious violations according to guidelines. The violator should have been considered a large
business because he purchased and sold over 500 animals a year. 88

Originally, APHIS assessed the broker a stipulation of $4,500. After receiving an eight-page
letter from the broker claiming hardship in paying the penalty, AC regional management altered
the gravity of the violations from serious to both significant and minor to allow an additional
15-percent penalty reduction. It also altered the size of the business from medium to small to
allow another 10-percent penalty reduction. As a result, the penalty was reduced from $4,500 to
$1,687.

Guidelines state that “some factors . . . are not relevant to determining monetary penalties,
including, among other things: inability to pay, disability, infirmity, need for income, effect on
business or family.” 89 The regional manager, who participated as a team member in establishing
these guidelines, told us that the broker’s letter addressed mitigating factors. However, after
reviewing the letter, we saw no evidence to justify the changes made to the penalty.

As these conditions demonstrate, when the worksheet yielded penalties that regional managers
considered excessive, they misused guidelines to lower the penalties. This resulted in some
violators not receiving their full penalty and penalties not being consistently applied among
violators. Therefore, we recommend that APHIS designate a responsible party to ensure that the
guidelines established by its Monetary Penalty Action Team are consistently followed. Also,
APHIS should include instructions in the guidelines to count each animal as a separate violation
in cases involving animal deaths or unlicensed wholesale activities.

        Recommendation 10
        Designate a responsible party to ensure that “Determining Penalties Under the Animal
        Welfare Act” (April 2006) is consistently followed by AC and IES and that penalties are
        properly calculated.




88
     The guidelines state “dealers [that] purchased, sold, or transported 405 animals during a two-year period” should be considered large-sized.
89
     “Determining Penalties Under the Animal Welfare Act,” pg. 5 (April 2006).


        Audit Report 33002-4-SF                                                                                                                     34
Agency Response
APHIS agrees with this Recommendation. We recently reorganized the enforcement
component of our Investigative and Enforcement Services (IES) to establish two branches:
the Animal Health and Welfare Enforcement Branch (AHWEB) and the Plant Health and
Border Protection Enforcement Branch. A GS-14 Chief will supervise each branch with full
supervisory authority for branch staff. The Chief of AHWEB and his/her subordinate staff
are responsible for EAs involving only AC and the APHIS Veterinary Services programs,
greatly increasing the level of staff specialization afforded to these programs when compared
to that in place during the audit. The Chief of AHWEB will assume responsibility for
ensuring that AWA penalty calculations are consistent and in accordance with the
instructions included in “Determining Penalties Under the Animal Welfare Act.” In an
instance where the AWHEB Branch Chief is unavailable or the position is vacant, the IES
Deputy Director will assume this responsibility.

OIG Position
We accept APHIS’ management decision on this recommendation.

Recommendation 11
Include instructions in “Determining Penalties Under the Animal Welfare Act” to count each
animal as a separate violation in cases involving animal deaths and unlicensed wholesale
activities.

Agency Response
APHIS partially agrees with this Recommendation. The Recommendation is not always
practical for unlicensed wholesale activities. We will request an opinion from Office of the
General Counsel about a penalty structure for unlicensed wholesale activities by September
30, 2010. However, we will count each animal as a separate violation when an animal death
results from NCIs. Specifically, AC will clarify the penalty guidelines by September 30,
2010, to count each animal as a separate violation when an animal death resulting from NCIs
is involved.

OIG Position
We agree with APHIS’ corrective action. However, our concern remains whether APHIS will
count the violations for unlicensed wholesale activities consistently. To achieve management
decision, APHIS needs to provide us with a copy of the Office of the General Counsel’s
opinion.




Audit Report 33002-4-SF                                                                    35
Section 3: Internet

Finding 5: Some Large Breeders Circumvented AWA by Selling
Animals Over the Internet
Large breeders that sell AWA-covered animals over the Internet (hereafter referred to as Internet
breeders) are exempt from AC’s inspection and licensing requirements. This occurred because
the AWA section that excludes retail pet stores (i.e., stores that sell directly to the public) from
its provisions pre-dates the Internet and creates a loophole for these breeders to circumvent
AWA. As a result, an increasing number of Internet breeders are not monitored for their
animals’ overall health and humane treatment.

AWA requires that “animals intended for use . . . as pets are provided humane care and
treatment” and that breeders of such animals be licensed and inspected. AWA exempts small
businesses and retail pet stores from its provisions, although it did not define the term “retail pet
stores.” 90

AWA was originally passed in 1966, long before the widespread use of the Internet. With the
explosion of the Internet in the 1990s, it became possible for large breeders to circumvent AWA
by selling directly to the public without an APHIS license and regular inspections. However,
these retail breeders should not be categorized as retail pet stores or small businesses and,
therefore, should not be exempted from AWA requirements for the reasons discussed below.

     •    Retail Pet Store Exemption. In 1971, APHIS defined the term retail pet store as “any
          retail outlet where animals are sold only as pets at retail.” 91 At that time, retail pet stores
          generally sold to local consumers. With the arrival of the Internet, the definition was
          broadly interpreted to include Internet breeders because they also sell directly to
          consumers. However, these breeders are no longer limited to local consumers but can
          sell and transport animals nationwide.

          Also, the former Secretary stated that “retail [outlets] are already subject to a degree of
          self-regulation and oversight by persons who purchase animals from the retailers’
          homes.” 92 However, for Internet breeders, there is no degree of self-regulation and
          oversight because consumers do not have access to their facilities. Without consumer
          oversight or APHIS inspections, there is no assurance that the animals are monitored for
          their overall health and humane treatment.

     •    Small Business Exemption. A small business is one that “derive[s] less than a substantial
          portion of his income (as determined by the Secretary) from the breeding and raising of
          dogs or cats on his own premises and sells any such dog or cat.” 93 The Secretary
          determined that “any person who maintains a total of three or fewer breeding female dogs
          . . . which were born and raised on his or her premises, for pets or exhibition” or “any


90
   7 U.S.C. §2131, §2133, and §2134 (January 3, 2007).
91
   9 CFR §1.1 (December 23, 1971).
92
   Doris Day Animal League v. Veneman (August 2003).
93
   7 U.S.C. §2133 (January 3, 2007).


     Audit Report 33002-4-SF                                                                            36
             person who sells fewer than 25 dogs and/or cats per year, which were born and raised on
             his or her premises . . . to any research facility” is exempted. 94

             However, many Internet breeders do not fall in the small business category because they
             have more than three breeding females. Some are very large breeders that derive a
             substantial income from the breeding of dogs. For example, one Internet breeder we
             visited in Iowa had over 140 breeding dogs and generated sales of $160,000 in 2007.

In April 2009, APHIS publicly acknowledged that not requiring Internet breeders to be licensed
and inspected is “a massive loophole.” 95 To quantify the loophole, we used two search engines
to identify how many of these breeders were licensed in two of our eight sampled States. We
identified 138 breeders that had more than 3 breeding females or handled more than 25 dogs a
year. We found 112 of the 138 (81 percent) were not licensed by APHIS. If these breeders had
sold their dogs wholesale (i.e., not retail through the Internet), they would have needed a license.

Without a license, these breeders are not monitored or inspected for their animals’ overall health
and humane treatment. With the dramatic increase in online sales, consumers who purchased
dogs in this manner sometimes found health problems with their dogs. Examples of some
consumer complaints are listed below:

        “This one pound puppy was very sick when she arrived . . . my vet informed me that
        she was suffering from severe hypoglycemia and massive infestations of Giardia,
        Threadworm, Roundworm and Coccidia. She also had two groin hernias. Her blood
        glucose level was dangerously low so she was immediately put on an IV.”—source:
        an OIG Hotline Complaint.

        “The [puppies] were mutts with poor body conformation, crooked teeth and were
        completely unsocialized. No health records came with the dogs and the information
        on the website was completely false.”—source: a Better Business Bureau sponsored
        website.

        “After suffering from numerous health issues that cost . . . thousands of dollars in vet
        bills, [the puppy] died when he was just eight months old.”—source: San Francisco
        Chronicle.

        “A breeder with a criminal record for animal cruelty was selling hundreds of puppies
        on the Internet.”—source: USA Today.

To ensure that large Internet sellers are inspected, APHIS should propose that the Secretary seek
legislative change to cover these sellers under AWA. Specifically, the agency should propose
that the Secretary recommend to Congress that it exclude Internet sellers from the definition of
“retail pet store,” thereby ensuring that large breeders that sell through the Internet are regulated
under AWA.



94
     9 CFR §2.1 (January 1, 2005)
95
     “A (Designer) Dog’s Life,” Newsweek (April 13, 2009)


        Audit Report 33002-4-SF                                                                    37
Recommendation 12
Propose that the Secretary seek legislative change to exclude Internet breeders from the
definition of “retail pet store,” and require that all applicable breeders that sell through the
Internet be regulated under AWA.

Agency Response

APHIS agrees with this Recommendation. APHIS is currently providing information
(including potential options) to Congress as requested regarding the proposed Puppy
Uniform Protection and Safety Act (PUPS). This bill would place dogs sold directly to the
public via the Internet, telephone, and catalogue sales within the jurisdiction of the AWA. In
addition, APHIS will concurrently draft a legislative proposal for the Secretary by May 31,
2010.

OIG Position

We accept APHIS’ management decision on this recommendation.




Audit Report 33002-4-SF                                                                            38
Section 4: Information System

Finding 6: Security Controls Need to Be Addressed for AC’s New
Information System
AC started using the Animal Care Information System (ACIS), its new mission critical system, 96
before the Department’s Cyber Security Office gave its concurrence to operate it. This occurred
because APHIS’ Chief Information Officer (CIO) believed that the majority of the new system’s
security controls were operating as intended and recommended that it be implemented. The
Cyber Security Office disagreed with the CIO’s assessment and identified issues in the
concurrency review checklist. As a result, there is no assurance that the new system has the
security controls mandated by the Department.

Departmental Manual 3555-001 states, “all USDA IT systems require certification and
accreditation prior to the system becoming operational. . . . Certified systems will undergo an
independent concurrence review by the ACIO-CS [Associate Chief Information Officer for
Cyber Security] prior to submission to the DAA [Designated Accrediting Authority].” 97 APHIS’
condensed guide also states, “the concurrence of ACIO-CS with the [Certifying Official] is
mandatory prior to submission to the DAA.” 98

Since 1994, AC has used LARIS (Licensing and Registration Information System) to record
licensing and registration of all breeders, exhibitors, and other facilities and to document their
inspection and violation histories. After reviewing LARIS in our last audit, 99 we determined that
this mission critical information system lacked certain key features that prevented it from
effectively tracking violations and prioritizing inspection activities. Also, it generated unreliable
and inaccurate information, limiting its usefulness to AC inspectors and supervisors. APHIS
agreed with our recommendation for a new system. However, due to contractor failure, APHIS
did not start to develop ACIS (LARIS’ replacement) until September 2007.

AC closed down LARIS on September 30, 2008, expecting that ACIS would be certified and
accredited the next month. However, the certification and accreditation did not occur the next
month; in fact, AC did not have an operating information system for 5 months before launching
the new system. Throughout this period, inspectors worked without a system, manually tracking
reports and calculating future inspection dates. 100

By January 2009, APHIS’ CIO believed that the majority of ACIS’ security controls were in
place and operating as intended. The CIO recommended that ACIS be authorized for use,
disregarding the required departmental concurrence review. Based on the CIO’s
recommendation, the DAA (in this case, APHIS’ deputy administrator) issued the authority to
operate ACIS, and AC inspectors started using the new system. Once the system became
operational in March 2009, inspectors then had to enter the 5 months of accumulated data into
the new system.

96
   Any system whose failure or disruption in normal business hours will result in the failure of business operations.
97
   Departmental Manual 3555-001, ch. 11, pt. 1 (October 18, 2005).
98
   Certification and Accreditation Condensed Guide, pg. 7 (April 24, 2007).
99
   Audit No. 33002-3-SF, “APHIS Animal Care Program Inspection and Enforcement Activities” (September 2005).
100
    LARIS and ACIS could not be run simultaneously on the inspectors’ computers due to compatibility issues. LARIS had to be removed before
ACIS could be loaded.


     Audit Report 33002-4-SF                                                                                                            39
However, the Department’s Cyber Security Office did not concur with the CIO about the
security controls and stated, “the documentation is [not] sufficient to support an accreditation
decision and [it] will not issue an interim authority to operate . . . the issues we identified [in the
checklists relate to the] system security plan, security controls compliance, contingency
concurrency, and risk assessment.” 101 To comply with departmental policy, APHIS should
address ACIS’ security issues identified by USDA’s Cyber Security Office during its
concurrency review. Controls should also be established regarding the closing down or
launching of mission critical systems.

        Recommendation 13
        Correct all security issues pertaining to ACIS that were identified by USDA’s Cyber Security
        Office during its concurrency review.

        Agency Response

        APHIS agrees with this Recommendation. We have already corrected all security issues
        pertaining to ACIS. Our corrective actions are documented in the attached memorandum
        entitled “Approval for Interim Authority to Operate for Animal and Plant Health Inspection
        Service Animal Care Information System (ACIS),” dated October 21, 2009.

        OIG Position

        We accept APHIS’ management decision on this recommendation.




101
      Memorandum to APHIS dated February 11, 2009.


        Audit Report 33002-4-SF                                                                      40
Section 5: Debt Management

Finding 7: IES Did Not Adequately Establish Payment Plans for
Stipulations
IES did not adequately establish the payment plans for AWA violators that had stipulation
agreements. This occurred because IES did not follow the payment plan process that was
presented by the Financial Management Division (FMD) during a meeting in 2004. Further,
FMD did not provide sufficient oversight or follow up of IES’ debt management activities. As a
result, 20 payment plans totaling $92,896 were (1) established without verifying the violators’
ability to pay, (2) not legally enforceable, and (3) not always established as accounts receivable.

Overall, FMD provides debt management services for APHIS and other agencies within the
Department. According to APHIS’ Budget and Accounting Manual, “FMD is responsible for
developing and implementing an effective debt management program for the Agency . . . and
providing oversight of Agency debt management activities.” 102

To accomplish this, FMD partners with IES, which negotiates payment plans for violators that
claim they are unable to pay the full amount of an agreed-upon stipulation. In March 2004,
FMD representatives met with IES to discuss the payment plan process and the responsibilities
that IES would be expected to assume. FMD did not provide further oversight.

We reviewed all 20 payment plans for stipulation agreements closed from October 2006 to April
2008. In assuming debt management responsibilities, IES did not comply with several
regulatory requirements involving all 20 plans—most having overlapping errors. Specifically,
we found that IES:

      •    Did not collect financial information when the violators claimed inability to pay. After
           IES and a violator agree to a stipulation, the violator may either pay in full or if he is
           unable to do so, then negotiate a payment plan. For all 20 plans, IES did not verify
           violators’ eligibility to qualify for the plans. Regulations require that plans must be based
           on debtor’s inability to pay in a reasonable time, which should be supported by financial
           information, such as tax returns and credit reports. 103 IES told us it was not aware of this
           requirement.

      •    Did not obtain legally enforceable written agreements (payment plans) from the violators.
           After IES and the violator mutually agree to a payment plan, IES signs the document
           before sending it to the violator. However, for 19 plans, IES did not require the violators
           to sign. 104 Regulations require that debtors provide “a legally enforceable written




102
    APHIS’ Budget and Accounting Manual, ch. 12 p. 2 (October 1, 2002).
103
    31 CFR §902.2 (July 1, 2006).
104
    For one case, IES did not require the violator to sign the original payment plan. After accepting its terms, the violator asked IES to renegotiate
the fine to a lower amount, and IES agreed to do so but required the violator to sign the second payment plan that was generated based on the
renegotiated amount.


      Audit Report 33002-4-SF                                                                                                                     41
             agreement.” 105 To ensure this, APHIS’ debt management policies require that the plans
             be signed by the debtor. 106 IES was not aware of this requirement.

        •    Did not forward documents to FMD to establish accounts receivable. For 7 payment
             plans, IES did not forward the required documents (i.e., settlement agreement, which
             includes the stipulation amount and plan) to FMD in order to establish accounts
             receivable. Although IES’ procedures require plans to be forwarded to FMD, IES could
             not provide a reasonable explanation why these plans were not. Without establishing
             accounts receivable for the plans, FMD cannot track and collect the debt.

As these conditions demonstrate, IES did not adequately establish 20 payment plans in
accordance with requirements. Therefore, we recommend that FMD ensure that IES follows the
payment plan process by conducting additional training and periodic reviews or reassume
responsibility for establishing violators’ payment plans.

        Recommendation 14
        Require FMD to ensure that IES follows the payment plan process by conducting additional
        training and periodic reviews, or require FMD to reassume its responsibility for establishing
        payment plans for stipulations.

        Agency Response

        APHIS agrees with this Recommendation. IES will follow the applicable federal regulations
        and FMD Guidelines for Establishing Payment Plans when establishing payment plans.
        Consistent with these authorities, in September 2009, IES and FMD developed the attached
        Memorandum of Agreement (MOA) for persons who request a payment plan. IES has
        implemented the MOA in its International Organization for Standardization (ISO) Payment
        Plan process. In addition, IES and FMD have developed a method to jointly review and
        reconcile payment plans, stipulations, and orders assessing penalties on a monthly basis.
        IES’ Chief, Document Control Branch, will train the IES personnel who handle payment
        plans, in accordance with FMD’s Guidelines for Establishing Payment Plans and IES’ ISO
        Payment Plan process.

        OIG Position

        We accept APHIS’ management decision on this recommendation.




105
      31 CFR §901.8 (July 1, 2006).
106
      “Guidelines for Establishing Payment Plans” (February 12, 2009).


        Audit Report 33002-4-SF                                                                     42
Scope and Methodology
We conducted a nationwide review of AC’s inspections of dealers and its enforcement of AWA
during FYs 2006 through 2008. We performed fieldwork at the AC and IES national offices in
Riverdale, Maryland; the two regional offices in Raleigh, North Carolina, and Fort Collins,
Colorado; the FMD Financial Services Branch in Minneapolis, Minnesota; and 81 dealer
facilities in 8 States (see exhibit B for a complete list of audit sites). We performed site visits
from April 2008 through March 2009.

With data exported from the LARIS database, 107 we judgmentally selected eight States—
Arkansas, Iowa, Minnesota, Missouri, Ohio, Oklahoma, Pennsylvania, and Texas—based on the
number of licensed dealers operating in the States. We also considered the type of animal
welfare laws or inspection programs that had been adopted by the States.

To accomplish our audit, we:

       •     Reviewed Criteria. We reviewed the pertinent laws and regulations governing the AC
             program and the current policies and procedures AC established as guidance for
             inspections and enforcement.

       •     Interviewed APHIS Personnel. We interviewed AC and IES national and regional office
             officials as well as 19 of the 99 inspectors to gain an understanding about the AC
             program, its inspections, and investigation procedures. We also interviewed FMD
             personnel to gain an understanding of the penalty collection process.

       •     Visited 81 Dealer Facilities. Using Audit Command Language software, we
             judgmentally selected 81 of 3,954 licensed dealers in our sampled States (33 in the
             Eastern Region and 48 in the Western Region). Generally, we selected the dealers based
             on the largest number of violations or repeat violations cited during our scope, the size of
             the facility, elapsed time since the last inspection, availability of its regular inspector, and
             proximity to other dealers in our sample.

             We accompanied 19 inspectors on their inspections of these dealers to (1) determine if
             the dealers were in compliance with AWA and related regulations and (2) evaluate the
             effectiveness of AC’s enforcement actions. Of the 81 dealers we selected, 68 had been
             cited for violations since FY 2006.

       •     Reviewed AC Inspection Reports and Files. For the 81 dealers we visited, we reviewed
             inspection reports and other documentation in AC’s files to determine if violations had
             been adequately addressed by the violators at re-inspections and, if not, whether
             appropriate enforcement action had been taken by AC.

       •     Analyzed Total Violations Cited During Inspections. We obtained nationwide data from
             LARIS of the violations cited during inspections in FYs 2006-2008. We then used Audit
             Command Language software to determine if the violators achieved compliance during

107
      The data was exported in April 2008.


       Audit Report 33002-4-SF                                                                            43
          re-inspections by comparing the total number of violators that were re-inspected during
          the period and the total number of those that continued to violate AWA.

      •   Interviewed Veterinary Schools. We interviewed the directors of the Shelter Medicine
          Programs at three veterinary schools in California, Massachusetts, and New York to
          determine if some of the situations we encountered during our site visits constituted
          direct violations.

      •   Reviewed Stipulations. At IES’ national office, we reviewed all 94 stipulation cases that
          were closed from October 2006 to April 2008 to determine if (1) reductions offered by
          APHIS were appropriate and (2) penalties were calculated correctly. 108 We then
          calculated the stipulation amounts using the old penalty worksheet for comparison.

          In addition, we compared the 94 cases in the current audit to the 77 stipulation cases from
          the 2005 audit to determine the factors that increased the average stipulation amount. 109

      •   Reviewed ALJ and JO Decisions. We reviewed all 16 AWA cases litigated by the
          Department where a decision was rendered on a licensed dealer from 2000 to 2009 to
          determine if AC supported its cases with sufficient evidence.

          In addition, we reviewed seven AWA cases (cited by APHIS) to determine the basis for
          the JO’s decision.

      •   Searched for Breeders Selling Puppies Over the Internet. We used two websites 110 to
          identify breeders that sold AWA-covered animals over the Internet. We focused our
          search on two States—Missouri and Pennsylvania—based on the large number of
          breeders operating in these States. We identified 138 breeders that had more than
          3 breeding females or handled more than 25 dogs a year. We compared information of
          these breeders to APHIS’ active licensed breeder list to identify those not licensed by
          APHIS. We also collected examples of consumer complaints related to Internet breeders.

      •   Reviewed Outstanding AC Receivables. At FMD, we reviewed all outstanding AC
          receivables as of August 26, 2008, to determine if delinquent receivables were handled
          properly. We also reviewed all 20 payment plans from the sampled IES stipulation cases
          to determine if the plans were processed according to requirements.

      •   Conducted a Limited Review of ACIS. We did not verify the accuracy of AC’s
          information system—ACIS—and make no representation of the adequacy of information
          generated from it. 111 We did review the new system’s certification and accreditation
          process, and the timeliness of its implementation.




108
    The stipulation cases included all facilities covered by AWA, such as dealers, research facilities and transporters.
109
    We excluded four stipulation cases from our 2005 sample because we had not obtained the worksheet, which showed the three factors.
110
    http://www.puppysites.com and http://puppydogweb.com.
111
    APHIS implemented the new system near the end of the audit. Therefore, we did not verify its accuracy.


      Audit Report 33002-4-SF                                                                                                            44
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




   Audit Report 33002-4-SF                                                                   45
Abbreviations
AC ............................... Animal Care
ACIO-CS..................... Associate Chief Information Officer for Cyber Security
ACIS ........................... Animal Care Information System
ALJ .............................. Administrative Law Judge
APHIS ......................... Animal and Plant Health Inspection Service
AWA ........................... Animal Welfare Act
CFR ............................. Code of Federal Regulations
CIO.............................. Chief Information Officer
DAA ............................ Designated Accrediting Authority
FMD ............................ Financial Management Division
FY ............................... Fiscal Year (Federal)
IES............................... Investigative and Enforcement Services
JO ................................ Judicial Officer
LARIS ......................... Licensing and Registration Information System
OACIS......................... On-line Animal Care Information System
OIG ............................. Office of Inspector General
U.S.C. .......................... United States Code




   Audit Report 33002-4-SF                                                            46
Exhibit A: Summary of Monetary Results



FINDING RECOMMENDATION
                                              DESCRIPTION                AMOUNT     CATEGORY
NUMBER      NUMBER

                                      Although APHIS previously
                                      agreed to revise its penalty
                                      worksheet to produce
                                      “significantly higher” penalties              FTBPTBU* –
                                      for violators of AWA, the                     Management
      3                          8    agency imposed penalties           $85,084    or Operating
                                      totaling $348,994, nearly                     Improvements/
                                      20 percent less than the                      Savings
                                      $434,078 calculated using the
                                      old worksheet for the
                                      94 stipulation cases we
                                      reviewed.

                                      IES did not adequately establish              FTBPTBU –
      7                          14   payment plans for stipulations     $92,896    Improper
                                      totaling $92,896.                             Accounting

TOTAL MONETARY RESULTS                                                   $177,980
*Funds to be put to better use




     Audit Report 33002-4-SF                                                                  47
Exhibit B: Audit Sites Visited



                     ORGANIZATION                         LOCATION


          APHIS National Office
            Animal Care                              Riverdale, MD
            Investigative and Enforcement Services   Riverdale, MD

          APHIS Eastern Regional Office
            Animal Care                              Raleigh, NC
            Investigative and Enforcement Services   Raleigh, NC
            Dealer Facilities:
                     1                               Goodville, PA
                     2                               Ephrata, PA
                     3                               East Earl, PA
                     4                               Lititz, PA
                     5                               Ephrata, PA
                     6                               Ronks, PA
                     7                               Shippensburg, PA
                     8                               Newburg, PA
                     9                               Belleville, PA
                    10                               Mill Creek, PA
                    11                               Belleville, PA
                    12                               Sugarcreek, OH
                    13                               Sugarcreek, OH
                    14                               Fresno, OH
                    15                               Dundee, OH
                    16                               Millersburg, OH
                    17                               Millersburg, OH
                    18                               Millersburg, OH
                    19                               Millersburg, OH
                    20                               Millersburg, OH
                    21                               Mt. Sterling, OH
                    22                               Columbus, OH
                    23                               Fredericktown, OH
                    24                               Brook Park, MN
                    25                               Remer, MN
                    26                               Nevis, MN



  Audit Report 33002-4-SF                                                48
                   ORGANIZATION                          LOCATION

                  27                               Brewster, MN
                  28                               Walnut Grove, MN
                  29                               Luverne, MN
                  30                               Ruthton, MN
                  31                               Reading, MN
                  32                               Walnut Grove, MN
                  33                               Avoca, MN

        APHIS Western Regional Office
          Animal Care                              Fort Collins, CO
          Investigative and Enforcement Services   Fort Collins, CO
          Dealer Facilities:
                  34                               Dardanelle, AR
                  35                               Pleasant Plains, AR
                  36                               Booneville, AR
                  37                               Booneville, AR
                  38                               Everton, AR
                  39                               Green Forest, AR
                  40                               Harriet, AR
                  41                               Mountainburg, AR
                  42                               Hindsville, AR
                  43                               Ozark, AR
                  44                               Agra, OK
                  45                               Jones, OK
                  46                               Jones, OK
                  47                               Atoka, OK
                  48                               Coalgate, OK
                  49                               Lane, OK
                  50                               Tishomingo, OK
                  51                               Atoka, OK
                  52                               Duncan, OK
                  53                               Duncan, OK
                  54                               Lebanon, MO
                  55                               Edgar Springs, MO
                  56                               Edgar Springs, MO
                  57                               Huggins, MO
                  58                               Houston, MO



Audit Report 33002-4-SF                                                  49
                   ORGANIZATION                    LOCATION

                  59                          Edwards, MO
                  60                          Warsaw, MO
                  61                          Dixon, MO
                  62                          Dixon, MO
                  63                          Cumberland, IA
                  64                          Massena, IA
                  65                          Audubon, IA
                  66                          Thayer, IA
                  67                          Bedford, IA
                  68                          Allerton, IA
                  69                          Humeston, IA
                  70                          Leon, IA
                  71                          Centerville, IA
                  72                          Altoona, IA
                  73                          Whitewright, TX
                  74                          Tom Bean, TX
                  75                          Wills Point, TX
                  76                          Midlothian, TX
                  77                          Wills Point, TX
                  78                          Scroggins, TX
                  79                          Simms, TX
                  80                          De Kalb, TX
                  81                          Simms, TX

        APHIS Financial Management Division   Minneapolis, MN




Audit Report 33002-4-SF                                         50
Exhibit C: Violations Cited at Dealer Facilities in FYs 2006-2008

                                     VIOLATION                                   COUNT
Housing Facilities, General                                                         4,744
Attending Veterinarian and Adequate Veterinary Care                                 3,537
Cleaning, Sanitization, Housekeeping, and Pest Control                              3,504
Primary Enclosures                                                                  3,170
Access and Inspection of Records and Property                                       2,900
Outdoor Housing Facilities                                                          2,678
Records: Dealers and Exhibitors                                                     1,601
Time and Method of Identification                                                   1,260
Sheltered Housing Facilities                                                         731
Sanitation                                                                           651
Indoor Housing Facilities                                                            576
Feeding                                                                              546
Watering                                                                             459
Facilities, General                                                                  428
Exercise for Dogs                                                                    254
Facilities, Indoor                                                                   237
Facilities, Outdoor                                                                  165
Notification of Change of Name, Address, Control                                     124
Procurement of Random Source Dogs and Cats, Dealer                                       82
Environment Enhancement To Promote Psychological Welfare                                 71
Employees                                                                                69
Minimum Age Requirements                                                                 69
Requirements and Application                                                             68
Compatible Grouping                                                                      60
Records: Operators of Auction Sales and Brokers                                          55
Handling of Animals                                                                      52
Others (e.g., Health Certification, Space Requirements, Care in Transit, etc.)       352
      TOTAL                                                                        28,443



   Audit Report 33002-4-SF                                                            51
Exhibit D: Additional Photos Taken During Site Reviews




            Missouri breeder violated AWA: This dog had an injured leg, raw flesh and
            bones exposed. The inspector correctly cited the breeder for lack of adequate
            veterinary care (9 CFR §2.40). The dog was eventually treated by a veterinarian.




            Texas breeder violated AWA: This dog had an oozing sore on its head. The
            inspector correctly cited the breeder for lack of adequate veterinary care (9 CFR
            §2.40), and required the breeder to take the dog to a veterinarian.




  Audit Report 33002-4-SF                                                                       52
          Ohio breeder violated AWA: This was an unsuitable kennel for puppies because
          their paws slipped through the wires, allowing regular contact with feces. The
          inspector correctly cited the breeder for failure to protect the dogs’ feet from
          injury (9 CFR §3.6).




          Texas breeder violated AWA: This dog had cloudy eyes covered with a heavy
          discharge, matted hair, and skin irritations. The inspector cited the breeder for
          lack of adequate veterinary care (9 CFR §2.40) and required the breeder to take
          the dog to a veterinarian for treatment. The inspector did not consider this a
          direct violation.




Audit Report 33002-4-SF                                                                       53
          Texas breeder violated AWA: Dogs had drinking water that contained algae and
          feces. The water receptacle was also chewed and unclean. This is in violation
          of 9 CFR §3.10 for failure to provide clean and sanitized water to dogs and
          §3.11 for failure to keep water receptacles clean and sanitized. The inspector
          verbally told the breeder to clean the water receptacle but did not cite these
          violations.




          Arkansas breeder violated AWA: This dog had a torn ear. The inspector
          correctly cited the breeder for lack of adequate veterinary care (9 CFR §2.40)
          and required the dog be taken to a veterinarian.



Audit Report 33002-4-SF                                                                    54
Agency’s Response




                            USDA’S




ANIMAL AND PLANT HEALTH INSPECTION
             SERVICE




           RESPONSE TO AUDIT REPORT




  Audit Report 33002-4-SF             55
United States
Department of
Agriculture      MEMORANDUM
Animal and
Plant Health
Inspection       TO:           Gil H. Harden
Service
                               Assistant Inspector General
Washington, DC                  for Audit
20250


                 FROM:         Cindy J. Smith /S/
                               Administrator

                 SUBJECT:      APHIS Response on OIG Report, “Animal and Plant
                               Health Inspection Service„s - Animal Care Program
                               Inspections of Problematic Dealers” (33002-04-SF)

                 The Animal and Plant Health Inspection Service (APHIS) appreciates the
                 opportunity to comment on this report. We appreciate the Office of Inspector
                 General‟s (OIG) interest in our programs. We have provided a response for
                 each Recommendation.

                 Recommendation 1: Modify the Dealer Inspection Guide to require an
                 enforcement action for direct and serious violations. Also, define a serious
                 violation in the Guide.

                 APHIS Response: APHIS agrees with this Recommendation. We will provide
                 Animal Care (AC) employees with guidance regarding all enforcement action options
                 including direct and serious Non-Compliant Items (NCIs) drawn from OIG
                 recommendations, Office of the General Counsel (OGC) guidance, and legal
                 decisions. APHIS will incorporate the requirements in a new document entitled
                 “Inspection Requirements.” This document will be distributed to and discussed with
                 AC employees during the AC National Meeting, April 19-22, 2010. APHIS will
                 update the Dealer Inspection Guide to include the information in the “Inspection
                 Requirements” document and consolidate it with the Research Facility Inspection and
                 the Exhibitor Inspection Guides into one comprehensive document. APHIS
                 anticipates completing the document consolidation by September 30, 2010.

                 Recommendation 2: Remove “no action” as an enforcement action in the Dealer
                 Inspection Guide.

                 APHIS Response: APHIS agrees with this Recommendation. We changed the title
                 of the “Enforcement Action Worksheet” to “Enforcement Action Option Worksheet”
                 and changed the flow chart title to read “Enforcement Actions (EA) Guidance for
                 Inspection Reports.” We modified these to clarify that: (1) inspectors will forward
Gil H. Harden                                                                           2




to AC management a recommended EA (they believe will be most effective in
attaining compliance) for all repeats and directs and any facility with inspection
results that cause it to go from a lower frequency to High Inspection Frequency; and
(2) taking no immediate action requires Regional Director approval and a 90-day
reinspection to determine if compliance was achieved or if EA is necessary. Copies
of the modified worksheet and flow chart are attached. AC will retain copies of all
EA sheets in the facility files in accordance with records retention guidelines. AC‟s
supervisors verbally directed their employees to utilize the modified EA worksheet
beginning on December 1, 2009. In addition, this will be reemphasized at the
National Meeting.

Recommendation 3: Incorporate instructions provided in the “Animal Care
Enforcement Actions Guidance for Inspection Reports” into the Dealer
Inspection Guide to ensure inspectors and their supervisors follow them in
selecting the appropriate enforcement.

APHIS Response: APHIS agrees with this Recommendation. We will provide AC
employees with guidance regarding all EA options to recommend to AC management
drawn from OIG recommendations, OGC guidance, and legal decisions. AC will
incorporate the requirements in a new document entitled “Inspection Requirements.”
This document will be distributed and covered for AC employees during AC‟s
National Meeting, April 19-22, 2010. APHIS will update the Dealer Inspection
Guide to include the information in the “Inspection Requirements” document and
consolidate it with the Research Facility Inspection and the Exhibitor Inspection
Guides into one comprehensive document. APHIS anticipates completing the
document consolidation by September 30, 2010.

Recommendation 4: Modify regulations to allow immediate confiscation where
animals are dying or seriously suffering.

APHIS Response: APHIS agrees with the intent of this Recommendation, but
believe that current regulations are sufficient to allow immediate confiscation. We
believe that we can effect the intent of the Recommendation by reviewing and
clarifying the confiscation processes so that confiscations can be accomplished with
maximum speed and effectiveness. We will distribute the clarified guidance to
employees during AC‟s National Meeting, April 19-22, 2010.

Recommendation 5: Establish written procedures to refer animal cruelty cases
to the States that have such felony laws.

APHIS Response: APHIS agrees with this Recommendation. While the Animal
Welfare Act (AWA) does not give APHIS the authority to determine if state or local
animal cruelty laws have been violated, we do believe that we should work with state
and local authorities in our shared goal of eliminating animal cruelty. APHIS will
Gil H. Harden                                                                             3




refer issues of mutual interest to appropriate local authorities who enforce state laws
and share inspection reports and EAs with several states that have state-level
enforcement capability (e.g., Colorado, Iowa, Kansas, Missouri, and Pennsylvania).
AC has modified the regional “Enforcement Action Option Worksheet” to include a
check box for inspectors to indicate whether or not they contacted local or state
authorities. A copy of the modified worksheet is attached. We will reemphasize with
inspectors the need to notify appropriate authorities who enforce state humane laws
during AC‟s National Meeting from April 19-22, 2010. APHIS will develop a
Standard Operating Procedure to refer suspected animal cruelty incidents to
appropriate authorities that have felony laws for animal cruelty. This document will
be completed by September 30, 2010.

Recommendation 6: Provide more comprehensive training and detailed
guidance to the inspectors and supervisors on direct and repeat violations,
enforcement procedures, evidentiary requirements (e.g., adequately describing
violations), shelter medicine, and animal abuse.

APHIS Response: APHIS agrees with this Recommendation. We have provided
training for all inspectors on identifying direct and repeat NCIs and adequately
describing NCIs, during fall 2009 meetings between supervisors and their inspector
teams. We will provide additional training and guidance (i.e., the “Inspection
Requirements” document) to inspectors and supervisors on identifying direct and
repeat NCIs, adequately describing NCIs, enforcement procedures, and common
medical conditions seen at commercial kennels during AC‟s National Meeting, April
19-22, 2010. In addition, we will provide a training session on shelter medicine at the
National Meeting. We will develop a comprehensive technical training plan through
the Center for Animal Welfare, by November 30, 2010.

Recommendation 7: Revise the Dealer Inspection Guide to require photos for all
violations that can be documented in this manner.

APHIS Response: APHIS agrees with this Recommendation. Our current guidance
calls for photographs of: direct NCIs; repeat NCIs; NCIs that may result in EA or an
investigation; NCIs that are additional information for ongoing investigations; and
transportation violations. In addition, our guidance states that inspectors may choose
to take photographs in other circumstances. We will modify guidance to add NCIs
documented on the third prelicense inspection and NCIs documented on inspections
that may be appealed. We will reemphasize with inspectors when to take
photographs. We will incorporate this information in the new “Inspection
Requirements” document, and distribute it to employees during the AC National
Meeting, April 19-22, 2010. APHIS will update the Dealer Inspection Guide to
include the information in the “Inspection Requirements” document and consolidate it
with the Research Facility Inspection and the Exhibitor Inspection Guides into one
Gil H. Harden                                                                          4




comprehensive document. APHIS anticipates completing the document consolidation
by September 30, 2010.

Recommendation 8: Limit total penalty reductions on the new worksheet to less
than 100 percent.

APHIS Response: APHIS agrees with this Recommendation. We will develop and
implement a new worksheet which limits total penalty reductions to less than
100 percent by September 30, 2010.

Recommendation 9: Establish a methodology to determine a minimum
stipulation amount and consistently apply that amount, when appropriate.

APHIS Response: APHIS agrees with this Recommendation. We will formally
document the “minimum stipulation amount” in the “Determining Penalties Under
the Animal Welfare Act” document by September 30, 2010.

Recommendation 10: Designate a responsible party to ensure that “Determining
Penalties Under the Animal Welfare Act” (April 2006) is consistently followed
by AC and IES and that penalties are properly calculated.

APHIS Response: APHIS agrees with this Recommendation. We recently
reorganized the enforcement component of our Investigative and Enforcement
Services (IES) to establish two branches: the Animal Health and Welfare
Enforcement Branch (AHWEB) and the Plant Health and Border Protection
Enforcement Branch. A GS-14 Chief will supervise each branch with full
supervisory authority for branch staff. The Chief of AHWEB and his/her subordinate
staff are responsible for EAs involving only AC and the APHIS Veterinary Services
programs, greatly increasing the level of staff specialization afforded to these
programs when compared to that in place during the audit. The Chief of AHWEB
will assume responsibility for ensuring that AWA penalty calculations are consistent
and in accordance with the instructions included in “Determining Penalties Under the
Animal Welfare Act.” In an instance where the AWHEB Branch Chief is unavailable
or the position is vacant, the IES Deputy Director will assume this responsibility.

Recommendation 11: Include instructions in “Determining Penalties Under the
Animal Welfare Act” to count each animal as a separate violation in cases
involving animal deaths and unlicensed wholesale activities.

APHIS Response: APHIS partially agrees with this Recommendation. The
Recommendation is not always practical for unlicensed wholesale activities. We will
request an opinion from OGC about a penalty structure for unlicensed wholesale
activities by September 30, 2010. However, we will count each animal as a separate
violation when an animal death results from NCIs. Specifically, AC will clarify the
Gil H. Harden                                                                           5




penalty guidelines by September 30, 2010, to count each animal as a separate
violation when an animal death resulting from NCIs is involved.

Recommendation 12: Propose that the Secretary seek legislative change to
exclude Internet breeders from the definition of “retail pet store,” and require
that all applicable breeders or brokers who sell through the Internet be
regulated under AWA.

APHIS Response: APHIS agrees with this Recommendation. APHIS is currently
providing information (including potential options) to Congress as requested
regarding the proposed Puppy Uniform Protection and Safety Act (or PUPS). This
bill would place dogs sold directly to the public via the Internet, telephone, and
catalogue sales within the jurisdiction of the AWA. In addition, APHIS will
concurrently draft a legislative proposal for the Secretary by May 31, 2010.

Recommendation 13: Correct all security issues pertaining to ACIS that were
identified by USDA’s Cyber Security Office during its concurrency review.

APHIS Response: APHIS agrees with this Recommendation. We have already
corrected all security issues pertaining to ACIS. Our corrective actions are
documented in the attached memorandum entitled “Approval for Interim Authority to
Operate for Animal and Plant Health Inspection Service Animal Care Information
System (ACIS),” dated October 21, 2009.

Recommendation 14: Require FMD to ensure that IES follows the payment plan
process by conducting additional training and periodic reviews, or require FMD
to reassume its responsibility for establishing payment plans for stipulations.

APHIS Response: APHIS agrees with this Recommendation. IES will follow the
applicable federal regulations and Financial Management Division‟s (FMD)
Guidelines for Establishing Payment Plans when establishing payment plans.
Consistent with these authorities, in September 2009, IES and FMD developed the
attached Memorandum of Agreement (MOA) for persons who request a payment.
IES has implemented the MOA in its International Organization for Standardization
(ISO) Payment Plan process. In addition, IES and FMD have developed a method to
jointly review and reconcile payment plans, stipulations, and orders assessing
penalties on a monthly basis. IES‟ Chief, Document Control Branch, will train the
IES personnel who handle payment plans, in accordance with FMD‟s Guidelines for
Establishing Payment Plans and IES‟ ISO Payment Plan process.

Please note that OIG‟s characterization of 31 C.F.R. § 901.8 and FMD‟s Guidelines
for Establishing Payment Plans differs from the plain language of those authorities.
For example, OIG asserts that 31 C.F.R. § 901.8 states, “require that plans must be
based on debtor‟s inability to pay in a reasonable time, which should be supported by
Gil H. Harden                                                                          6




financial information,” but the regulation actually states, “Agencies should obtain
financial statements from debtors who represent that they are unable to pay in one
lump sum and independently verify such representations whenever possible.”
(emphasis added) Additionally, OIG states, “APHIS‟ debt management polices
require that the plans be signed by the debtor,” but FMD‟s Guidelines for
Establishing Payment Plans actually state, “Agencies may accept installment
payments notwithstanding the refusal of the debtor to execute a written agreement or
provide financial statements.” (emphasis added)

We hope that with this memorandum you are able to reach management decisions.


Attachments
                    Enforcement Action Option Worksheet
Licensee / Registrant Name:

License / Registration Number(s):

Customer Number:

Site No.(s):

Date(s) of Alleged Violation(s):

Date of Inspection Report(s):

Photos Included:                      Yes        No

Airbill Included:                     Yes        No         NA

Local or State Authorities Contacted  Yes        No         NA




Action Taken:
(Check one)            Reinspection within 90 days (complete information below)
                       APHIS Form 7060
                       Initiate investigation
                       Add to current investigation/case
                       Other (explain):
                      



Basis for Recommendation of “Reinspection within 90 days”:

_____ Violation(s) are not severe enough to necessitate enforcement action at this time

_____ Evidence that facility is making credible progress towards full compliance - to be
      verified on reinspection.
_____ Other: (Explain)




SACS Signature_______________________________                 Date______________

RD Concurrence______________________________                  Date______________

                                          Revised 11/18/09
                     Animal Care
Enforcement Actions (EA) Guidance for Inspection Reports


          Inspection Conducted &
          Report Generated



                NCIs                       No                    File Report
                Documented                                          (end)



                                                            NCI are Minor
   NCIs are Direct                 Yes                      or Moderate
   and/or Severe



                        Repeat NCIs                      Inspector Re-inspects
                                                         According to RBIS or
                                                         Need


               Yes                                  No




   Inspector and SACS recommends enforcement action
                          and



                     SACS submits EA                                 NOTE: Consider
                     request to RO                                      “Fast Track”
                                                                         Option for
                                                                     Stipulations when
                                                                         appropriate
                             ARD/RD
                             Review



    90 day
   Reinspect          7060            Stipulation             OGC
       *               **                 ***                 ****
                                                                October 21, 2009

TO:            Marilyn Holland
               Chief Information Officer
               Animal and Plant Health Inspection Service

FROM:          Charles T. McClam /S/ R. Coffee
               Deputy Chief Information Officer
               Office of the Chief Information Officer

SUBJECT:       Approval for Interim Authority to Operate for Animal and Plant
               Health Inspection Service (APHIS) Plant Health Information System
               (PHIS)

I have reviewed your request dated September 30, 2009, for an Interim Authority to
Operate (IATO) for PHIS. I concur with your request for an IATO, effective for 90
days from the date of this memorandum under the following conditions. APHIS will:

           •   Submit a security categorization document, privacy threshold
               analysis/privacy impact assessment, risk assessment and system
               security plan into the Cyber Security and Management (CSAM)
               system for review.
           •   Create Plans for Action and Milestones (POAMS) in CSAM that
               document the accreditation project.
           •   Operate the system with appropriate security controls in place.
           •   Submit bi-weekly reports to the Office of Cyber and Privacy Policy
               and Oversight as to the status of its accreditation activities.
           •   Continually monitor the security posture of the system to ensure that
               no security vulnerabilities arise.
           •   Ensure that any vulnerabilities reported during the continuous
               monitoring process do not result in any unacceptable risk to USDA
               operations and assets.
           •   Accredit the system before the IATO expires.

If you have any questions, please contact Valarie Burks, Associate Chief Information
Officer for Cyber and Privacy Policy and Oversight at 202-690-2396 or via e-mail at
Valarie.Burks@usda.gov.
                   United States          Marketing and            Financial                Minneapolis Financial Services Branch
                   Department of          Regulatory Programs      Management               Debt Management Team
                   Agriculture                                     Division                 PO Box 3334
                                                                                            Minneapolis, MN 55403

                                                AGREEMENT BETWEEN
                                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                    ANIMAL AND PLANT HEALTH INPECTION SERVICE
                                                         AND
                                                 ____________________
                                         TIN: ____________    CASE # ________

This Agreement, dated this _____ day of _________ is between ____________of _____________________________, and the United
States Department of Agriculture, Animal and Plant Health Inspection Services, Financial Service Branch, Minneapolis, MN,
hereinafter referred to as APHIS.

_____________ acknowledges that a civil penalty debt is owed to APHIS in the principal amount of       . ___________agrees to
pay this amount to APHIS in monthly installments. The first installment payment of _____ shall be due on ________________with
subsequent payments of _____ due on the (either 1st or 15th) of each successive month, beginning __________. Please annotate your
case number on the payment.

_________________understands the terms of this agreement and agrees as follows:

    •   In accordance with the Debt Collection Act of 1982 and the Debt Collection Improvement Act of 1996, late payments will be
        subject to interest and or penalty charges.

    •   In the event of default on the payment schedule (which default remains uncured for 60 days from the due date thereof), the
        total unpaid balance shall be immediately due and payable without demand or notice thereof. The balance due will be unpaid
        principal, interest calculated from the first day following the due date of the payment schedule, and late payment penalty.

    •   Failure to complete payments agreed to in this payment plan will result in this debt being prepared for referral to the United
        States Department of Treasury for further collection action.

    •   The interest rate will be the current value of funds rate established by the Department of Treasury. For late payments, interest
        will be charged from the first day following the due date of the payment.

    •   ______________agrees to reference their USDA APHIS account number on all payments, and to remit all installment
        payments under this Agreement to the USDA APHIS lockbox bank in accordance with either of the following methods:

    Mail Address:                                               Physical Address:
    USDA, APHIS, (Case #)                                       U.S. Bank (Case #)
    P.O. Box 979043                                             Attn: Gvmt Lockbox – P. O. Box 979043
    St. Louis, MO 63195                                         1005 Convention Plaza
                                                                St. Louis, MO 63101
    Please return the signed agreement to:

    USDA, APHIS, IES (Case #)
    Attn: (Specialist name)
    4700 River Road, Unit 85
    Riverdale, MD 20737

    APHIS and ________________ understand and will abide by all of the terms outlined in this agreement.

    ___________________                                                 USDA Animal and Plant Health Inspection Service


             (Signature) ___________________________                             (Signature) _____________________
    (_print name) ____________________                                  (Specialist & Phone #.) ________
                                   Date                                                                         Date



          APHIS - Protecting American Agriculture                                              An Equal Opportunity Employer
          Toll Free: (877) 777-2128, Commercial: (612) 336-3400, FAX: (612) 370-2293
                                                                                                   T82 Payment Plan Agreement (11/09)
